<html>
<title> - THE STATUS AND OUTLOOK OF ENERGY INNOVATION IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 116-244]
[From the U.S. Government Publishing Office]




                                                       
                                                        S. Hrg. 116-244

    THE STATUS AND OUTLOOK OF ENERGY INNOVATION IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            FEBRUARY 7, 2019

                               ----------  
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 


                       Printed for the use of the
               Committee on Energy and Natural Resources             
               
 
               
               
               

    THE STATUS AND OUTLOOK OF ENERGY INNOVATION IN THE UNITED STATES
    
    



                                                        S. Hrg. 116-244
 
    THE STATUS AND OUTLOOK OF ENERGY INNOVATION IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2019

                               __________
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 35-554                WASHINGTON : 2020        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA MCSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
            Chester Carson, Senior Professional Staff Member
             Dr. Benjamin Reinke, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Brie Van Cleve, Democratic Professional Staff Member
          
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     2

                               WITNESSES

Dabbar, Hon. Paul M., Under Secretary for Science, U.S. 
  Department of Energy...........................................     4
Moniz, Hon. Ernest J., Founder and CEO, Energy Futures Initiative    35
Wince-Smith, Deborah L., President & CEO, Council on 
  Competitiveness................................................    56
Faison, Jay, Founder, ClearPath..................................   211
Grumet, Jason, President, Bipartisan Policy Center...............   216
Wood, James F., Interim Director, Energy Institute, West Virginia 
  Uni-
  versity........................................................   230

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Dabbar, Hon. Paul M.:
    Opening Statement............................................     4
    Written Testimony............................................     6
    Responses to Questions for the Record........................   266
Faison, Jay:
    Opening Statement............................................   211
    Written Testimony............................................   213
    Responses to Questions for the Record........................   315
Grumet, Jason:
    Opening Statement............................................   216
    Written Testimony............................................   219
    Responses to Questions for the Record........................   323
IEEE-USA:
    Statement for the Record.....................................   333
Manchin III, Hon. Joe:
    Opening Statement............................................     2
Moniz, Hon. Ernest J.:
    Opening Statement............................................    35
    Written Testimony............................................    38
    Responses to Questions for the Record........................   296
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Wince-Smith, Deborah L.:
    Opening Statement............................................    56
    Written Testimony............................................    58
    Responses to Questions for the Record........................   312
Wood, James F.:
    Opening Statement............................................   230
    Written Testimony............................................   233
    Responses to Questions for the Record........................   329


    THE STATUS AND OUTLOOK OF ENERGY INNOVATION IN THE UNITED STATES

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:37 a.m., in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order. It has been a busy week here on the Energy 
Committee with our Lands bill that is currently on the Floor. 
We had a business meeting a couple days ago, and now we are 
here for our second full Committee hearing. So we welcome those 
of you on the panel this morning.
    On Tuesday, we heard from those in the energy and minerals 
market an overview looking at the current trends. Today we are 
going to look at what is happening to drive the energy trends 
of the future, what could be the next breakthrough energy 
technology. We use the term ``breakthrough'' a lot. Let's try 
to define that a little bit this morning. We are also looking 
to how we can encourage innovation that will deliver better, 
cleaner and cheaper energy for American families and 
businesses.
    Here in the United States we have long been on the cutting 
edge of energy innovation. Whether the battle for electric 
current supremacy between Nicola Tesla and Thomas Edison, the 
invention of the semiconductor or the revolution in hydraulic 
fracturing, American ingenuity has led the way in global 
innovation, but we want to continue to lead the way in global 
innovation.
    Underpinning all these efforts is strong support for the 
basic sciences and the people who dedicate their lives to 
furthering scientific pursuits. The Department of Energy plays 
an outsized role in pushing the limits of basic science, 
furthering discovery and finding the breakthroughs that can 
change our energy future, and they further leverage this by 
partnering with private industry and the great researchers at 
our nation's universities.
    Our role here in the Congress is to help foster an 
environment that encourages that innovation. Last Congress we 
enacted a number of important innovation policies into law, 
ones that promoted a national quantum initiative, advanced 
nuclear energy and energy efficiency. But looking forward, we 
also know that the energy challenges facing us here in the 
United States and the world will require bigger, bolder, 
better, brighter, faster, smarter ideas.
    I have often spoken about clean energy innovation policies 
as ``no-regrets'' solutions, but in reality, these are just the 
first steps. It is time to push hard to bring down the cost of 
clean energy, technologies like renewables, advanced nuclear 
and next-generation energy storage and carbon capture. If we 
want credible technological solutions that are cost-effective 
and deployable globally and at scale, we must ensure that the 
policies that we put in place propel these forward.
    I am pleased to welcome a very distinguished panel of 
witnesses that we have before us. From the Department of Energy 
(DOE) we have the Under Secretary for Science, Paul Dabbar. 
Thank you for being here and for your work that you are doing 
to further the basic science research and the innovation that 
goes on at the department. We appreciate that.
    Next we have someone who is truly a friend of the 
Committee. We have seen him in different capacities here. 
Secretary Moniz is a former Secretary of Energy. We welcome you 
back to the Committee and appreciate the insight that you will 
provide and what you will be able to share with us with this 
recent report that is out. It was a pleasure to be able to 
visit with you and Mr. Yergin yesterday to get some of the low-
down there. So thank you and welcome to the Committee.
    We have Jay Faison who is with us this morning with 
ClearPath. Jay has been a real leader in so many of these 
clean-energy solutions and how we advance those benefits, so it 
is good to have you back with us.
    From the Council on Competitiveness, we welcome back its 
President and CEO, Deborah Wince-Smith. It is good to have you 
here.
    Jason Grumet has, again, also been before the Committee 
many times and is a good strong voice on so many of these 
issues, but he is the President of the Bipartisan Policy 
Center.
    And then finally from the fantastic little state--Senator 
Manchin is always saying ``my little State----
    Senator Manchin. Compared to Alaska.
    The Chairman. ----of West Virginia.'' Yes, we are good with 
that. But it is wonderful to have you here, Mr. Wood. He is the 
Interim Director of the West Virginia University (WVU) Energy 
Institute. It is a pleasure to have you with us here this 
morning.
    With that, I turn to my Ranking Member for any comments 
that you may have.

          OPENING STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Let me say thank you, Chairman Murkowski, 
for convening this hearing to discuss how we develop, test and 
commercialize breakthrough energy technologies and to have all 
of you. This esteemed panel is really special.
    This hearing is particularly important because innovation 
is a critical piece of how the Committee can contribute to the 
pursuit of technological energy manufacturing solutions that 
will help reduce carbon emissions and address climate 
challenges.
    The Breakthrough Energy Report that was released yesterday 
has some ideas I think this Committee should consider. Senator 
Murkowski and I had a robust discussion with Secretary Moniz 
last night, and I look forward to continuing that today.
    I am especially pleased to have my friend, Jim Wood, here 
from the West Virginia University Energy Institute to talk 
about the cutting-edge solutions that WVU is working on today. 
Much of WVU's good work is in partnership with the National 
Energy Technology Lab, both mainstays in the Morgantown, West 
Virginia, area and leaders in finding ways to burn coal and 
natural gas in a cleaner, more efficient way. As I said in our 
last hearing, my home state, my great little, compared to 
Alaska, home State of West Virginia, is committed to solving 
the climate crisis. Breakthrough technologies will help us 
reliably meet our energy needs in the future while 
decarbonizing our energy system. Now as we think about 
affordable and reliable electricity, we must acknowledge that 
fossil fuels will continue to play an integral role in our 
electricity generation. With that in mind, we need to 
prioritize the advancement and commercialization of 
technologies, like carbon capture, that we can employ both here 
at home and overseas.
    In 2017, China and India used coal for 67 and 74 percent 
respectively of their electricity needs. While I understand 
both countries are taking steps to reduce emissions and add 
more renewable generation, fossil fuels are still a part of 
their future, and ours. By 2040, the International Energy 
Agency says China will still be about 51 percent dependent on 
coal and India will be 57 percent.
    Dr. Jesse Jenkins and Samuel Thernstrom recently wrote in 
the New York Times that if we are going to decarbonize our 
economy, we must do so with more than just wind and solar. They 
concluded that it would be much cheaper to include so-called 
firm, low-carbon technologies such as nuclear, carbon capture, 
or reliable renewables like hydro than it would be to build a 
clean-energy system without them.
    So it is time to seek out practical solutions for emissions 
and ways to strike the balance between energy, the environment, 
and jobs. A large part of finding that balance is strengthening 
our investments in advanced R&D, which we will talk about 
today, for carbon capture, utilization, and sequestration 
(CCUS) and making coal plants more efficient. It also means 
investing in advanced nuclear technologies that make the 
current nuclear fleet more cost-effective while moving the ball 
forward on small modular reactors. That is going to take a lot 
of private capital from leaders such as Mr. Bill Gates, but it 
will also require even more leadership from the Federal 
Government.
    Then there is energy efficiency. As we heard from the panel 
at Tuesday's hearing, energy efficiency really is the low-
hanging fruit. The DOE estimates that efficiency improvements 
can save U.S. consumers and businesses 741,000 gigawatt-hours 
of electricity between 2016 and 2035, which is equal to 16 
percent of the electricity used in 2035. That is a tremendous 
energy resource. That is a potential cumulative savings of 6.5 
gigawatts in my great little State of West Virginia alone by 
2035.
    But it is not just about efficiency savings in buildings, 
it is about what technologies will make electricity 
transmission in particular more reliable and more efficient. So 
I am interested to hear from this panel on the level of 
investment there and what the ongoing regulatory challenges are 
to reducing those losses in the line.
    That brings me to storage. Whether we are talking about 
batteries or pumped hydro, there is a lot of good work going on 
about how we approach energy storage, but we do not have the 
magic answer yet. So let's talk about the timeline and how we 
get there and how we can do it in the interim to ensure the 
lights stay on, homes stay warm, and businesses keep running. 
We need cost-effective technologies and solutions that make us 
productive and competitive in a global market while allowing us 
to lead on climate solutions.
    We have an esteemed panel here today, and we are eagerly 
waiting to hear from you all to give us the answers we need.
    Thank you very much.
    The Chairman. Thank you, Senator Manchin.
    I think we have introduced folks in terms of a little bit 
of your background, so let's just begin the testimony here this 
morning. We will begin with you, Under Secretary Dabbar. I 
would ask that you try to keep your comments to about five 
minutes. Your full statements will be included as part of the 
record. Again, we are very, very pleased to have such a well-
rounded and distinguished panel. Please proceed.

STATEMENT OF HON. PAUL M. DABBAR, UNDER SECRETARY FOR SCIENCE, 
                   U.S. DEPARTMENT OF ENERGY

    Mr. Dabbar. Thank you, Chairwoman Murkowski and Ranking 
Member Manchin, for the opportunity to come and discuss the 
nation's energy innovation cycle.
    Before I begin, I'd like to thank Secretary Moniz and 
Deputy Secretary Poneman for their stewardship of the 
Department and the national labs. The Department holds the 
legacy of innovation that helped win World War II and the Cold 
War. Fermi and Lawrence, Rickover and Oppenheimer combined 
brilliance with action. I submitted to this Committee a copy of 
the 75 Breakthroughs of National Labs which summarizes some of 
the top innovations that have come out of our national lab 
complex since their start.
    We also submitted our new policy paper, American Scientific 
Leadership for the 21st Century, and it's also on the DOE 
website. In it, we highlight our policy positions on execution 
and federal support for discovery. We highlighted the six 
exciting areas which have the possibility of truly 
transformative opportunities for humankind: artificial 
intelligence, quantum technologies, advanced and sustainable 
energies, space and the universe exploration, advanced 
mobility, and genomics. Major breakthroughs in these areas are 
in our grasp, and we are proud of the role the DOE has in 
advancing them. The American energy technology revolution 
driven by the national labs, universities and the private 
sector has dramatically improved emissions, costs and energy 
production. There has been significant increase in policy 
proposals as of late around mandates and taxation to drive 
energy and emission goals. These positions are being driven 
without full understanding that the labs and the market have 
driven significant jumps in energy technologies. Wind turbine 
capacity factors have increased by more than 50 percent. Solar 
costs have dropped by more than 90 percent. Utility-scale 
batteries are now cost competitive with gas turbines without 
incentives. Gas turbine heat rates, which is an efficiency 
factor, have dropped by more than 10 percent, and it's hard to 
get thermo to move 10 percent. Oil and gas cost improvements 
have dropped prices by over 60 percent. Our costs, energy 
production and emissions have dramatically improved because of 
American innovation driven in part by broad bipartisan support 
for the national labs.
    What is on the horizon for American innovation for energy? 
Research will continue to deliver significant reductions to 
emissions and costs. There will be significant jumps in 
technologies including battery chemistries three to five times 
better than lithium-ion; carbon capture based on new materials; 
next generation nuclear; and, distributed grid technologies. 
And there are three private fusion companies looking to build 
their first power prototypes including one that Secretary Moniz 
sits on the board of.
    We are also committed to the policies that support 
commercialization to combine the expertise of the labs with the 
energy of the private sector to speed the movement of 
technologies to the marketplace. For example, in November we 
launched the laboratory agreement and liability reform 
initiatives to streamline our labs' abilities to enter into 
partnering agreements. These will significantly reduce the 
efforts for commercialization.
    The DOE is co-leading the Administration's lab-to-market 
goal with the focus on reducing execution burdens, increasing 
private sector engagement and building a more entrepreneurial 
workforce, R&D workforce. We have designated the Director of 
the Office of Technology Transitions as the Department's Chief 
Commercialization Officer, which elevates the status of driving 
DOE technology. We also just established a Research and 
Technology Investment Committee implementing the requirements 
of the DOE Research and Innovation Act that was passed this 
last year. This Committee will convene R&D elements of the 
Department to coordinate research priorities, cross-cutting 
opportunities and ensure the key decisions are leveraged. These 
actions we just took are in alignment with the Breakthrough 
Energy Report that was just submitted this week.
    Additionally, DOE has kicked off a series of summits called 
InnovationXLab. The XLab summits increase lab engagement with 
industry, investors and customers in which we both highlight 
the research from the national labs that is approaching 
commercialization application but also hear from industry about 
its interest and its investment criteria. In this way, we 
incorporate market pull as an important part of our R&D 
planning portfolio.
    As a part of this, I'd like to kindly ask the Committee for 
consideration at one point around the leadership positions that 
are still open for us as a Department. We very much appreciate 
the leadership of this Committee on reviewing our nominees, but 
we still have the heads of the Office of Science, ARPA-E, as 
well as General Counsel on Nuclear Energy. We kindly ask for 
potential full Senate consideration should the nominees be 
voted out of this Committee again.
    So thank you very much.
    [The prepared statement of Mr. Dabbar follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Thank you. We appreciate that. And rest 
assured, we too are trying to get these nominees through the 
process just as quickly as we can. You need to have your full 
team up and running and particularly in these key areas. So 
thank you for that, and thank you for your testimony this 
morning.
    Secretary Moniz, it is a pleasure.

  STATEMENT OF HON. ERNEST J. MONIZ, FOUNDER AND CEO, ENERGY 
                       FUTURES INITIATIVE

    Dr. Moniz. Well thank you, Chairman Murkowski and Ranking 
Member Manchin and members of the Committee, most of whom are 
extremely familiar, and I must say I've been testifying before 
this Committee and Chairman Murkowski for more than two 
decades. And I thank the Chair and the Ranking Member also for 
the time yesterday when we could discuss our new report. I've 
always been happy to work with this Committee in a bipartisan 
way and look forward to helping any way we can going forward. 
Also I'd like to recognize Under Secretary Dabbar whose 
background also in investment banking and I think is a very, 
very good background for this, this subject.
    Much of my career has focused on innovation from initiating 
the MIT Energy Initiative which had new ways of working with 
the energy industry, my tenure as Secretary making innovation a 
cornerstone of our approach to energy--our energy policy and 
initiatives; now in a new organization, the Energy Futures 
Initiative, from which we issued yesterday this report, 
``Advancing the Landscape of Clean Energy Innovation,'' and 
this is a report done in collaboration with Dan Yergin and IHS 
Market. I want to emphasize the report is our responsibility of 
EFI and IHS Market but with the strong support of Energy 
Breakthrough, the organization established by Bill Gates to 
focus on energy innovation.
    The context certainly starts by--we all know this but it 
deserves repeating. Innovation is at the heart of the American 
success story, driving our economy and security for a long 
time, and we emphasize that we must continue to place our bet 
on innovation outcomes rather than prescribed or planned 
outcomes as has often been the case in other countries, and 
this remains very wise counsel in discussing clean energy 
innovation going forward and the massive low-carbon energy 
economy transformation that we are just at the beginning of.
    Accelerating this transition will not be easy. The nature 
of the business, highly regulated, large capital assets and the 
like leads to risk aversion. But we emphasize that if we are 
going to accelerate, the incumbent energy companies must be 
part of this just as the disrupters, entrepreneurs, must be 
part of it, and we have to see them as partners in a successful 
transformation. Part of that involves what we call the platform 
technologies like edited manufacturing and big data and AI, et 
cetera. We need to do more to integrate that into the energy 
innovation challenge.
    We have challenges to our preeminence in clean energy 
innovation. China certainly, for example, with its rapidly 
growing markets--market pull is a big stimulus to energy 
innovation, but that highlights even more why we need to focus 
on this and maintain our preeminence.
    Let me highlight--actually, let me also add that we should 
remember that this energy innovation agenda is equally 
important for energy security, and I refer the Committee back 
to the 2014 energy--Modern Energy Security Principles endorsed 
by the G7 and the EU.
    Let me highlight just a few themes from the report. One 
focus of course is a methodology for looking at our RD&D 
portfolio itself, and we narrowed down from over 100 to 10 what 
we consider to be premier opportunities, areas of considerable 
underinvestment.
    Storage, for example, is very prominent, but emphasizing it 
is about things like new chemistries with earth-abundant 
elements but it's also about completely new approaches to 
seasonal storage, as an example, where we are hardly addressing 
it.
    Advanced nuclear. How do we get this unprecedented 
innovation across the finish line? It's going to require 
public-private partnerships.
    We need to revive and re-look at hydrogen in some sense as 
an evolution from natural gas to a low-carbon fuel that can be 
used across multiple sectors, but natural gas itself with 
carbon capture and sequestration can be a part of that, of that 
hydrogen economy. That in turn emphasizes that we must focus on 
the fact that when you go beyond electricity to go to the hard-
to-decarbonize sectors like industry, like agriculture, et 
cetera, they must be part of the solution. I posit they will 
not be enough even then without adding to it large-scale carbon 
management. CCUS in the broadest sense is part of that, 
including areas like biological sequestration, which we are not 
really doing enough on.
    And then finally, and this is very much in Paul's 
bailiwick, there are the areas which could be enormous 
breakthroughs but extremely high risk and extremely early in 
the innovation process, like sunlight-to-fuels, for example, 
where there are very, very fundamental science issues still to 
be addressed. So our report kind of paints that picture and 
hopefully provides some guidance in terms of portfolio 
construction.
    A second point is the scale of investment, and I'll leave 
that to Jason Grumet to talk about the AEIC, but we do need a 
very, very large increase in our investment but we all know 
this is going to come into fiscal headwinds going forward. And 
so we do recommend a re-look, and I know this Committee has 
done some of this in terms of new, dedicated funding streams 
that can help support innovation.
    We need to align key policies, programs, players. For 
example, state regulators play a key role. They must not 
provide, especially in the competitive markets, headwinds. They 
need to provide tailwinds for innovation. We discussed that.
    We emphasized the importance of regional innovation. And 
again, we think the Federal Government can do a lot to 
stimulate this. We need innovative ecosystems in more 
geographies. We need a set of priorities and opportunities that 
will emerge in different geographies in different ways. And in 
fact, the states of our Chair and Ranking Member are examples 
of how priorities could be set in very, very different ways to 
address key low-carbon solutions. The national labs that Paul 
discussed in detail and other FFRDCs could be one of the 
cornerstones for these regional ecosystems in many ways.
    In concluding, there's a clear need for sustaining U.S. 
preeminence in clean energy innovation, but we need to work at 
it. This is not going to be automatic. But it's also an 
enormous opportunity, and this Committee is poised to play a 
central role.
    My colleagues and I remain available to help in any way we 
can. I look forward to the discussion.
    Thank you, Madame Chair.
    [The prepared statement of Dr. Moniz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you so very much. I appreciate your 
contribution.
    Ms. Wince-Smith, welcome.

 STATEMENT OF DEBORAH L. WINCE-SMITH, PRESIDENT & CEO, COUNCIL 
                       ON COMPETITIVENESS

    Ms. Wince-Smith. Thank you, Chairman Murkowski, Ranking 
Member Manchin and members of the Committee, for the 
opportunity to address our nation's innovation imperative.
    I, too, would like to thank Secretary Moniz for his 
tremendous leadership, Under Secretary Dabbar and the other 
members of the panel.
    I will focus my remarks on today's reality; namely, that 
access to low-cost, abundant domestic energy and increasing 
energy efficiency and productivity coupled with the emergence 
of U.S. advanced manufacturing capacity has created a 
tremendous economic opportunity for our country and, since 
2008, a significant positive decoupling of energy use from 
economic growth. This opportunity calls for national 
leadership, investment and public-private partnerships to 
capitalize on this nexus of energy abundance and our 
manufacturing renaissance supported by America's great research 
universities, national laboratories, global industrial 
enterprises, emerging new companies and skilled workforce.
    Unparalleled advances in science and technology are 
transforming our economy and the energy systems that power and 
enable its productivity. These advances are ushering in new 
industries, disrupting the old and up-ending the skill sets 
required for our citizens to prosper in a relentless world of 
competition and transformation.
    The digitization of the economy is moving ahead full speed 
with smart sensors, the tsunami of data, deployment of AI and 
autonomous systems, the emergency of 5G telecom infrastructure, 
next-generation microelectronics moving us beyond Moore's Law. 
Advanced manufacturing processes and new materials are driving 
the emergent battery technology required for all energy sources 
to power an interoperable smart grid system.
    Yet we face formidable challenges: challenges that demand a 
national commitment to optimize our innovation system, one 
weakened by chronic underinvestment in federal R&D, hampered by 
outdated innovation-hostile regulation, limited by lack of 
access to patient long-term capital to support innovation 
cycles from startup to scale-up, and deficient, degrading 
infrastructures such as interstate transmission.
    Of both economic and national security concern are critical 
technology startups supported with federal investment that have 
produced tremendously valuable intellectual property, and many 
are systematically being acquired by Chinese companies' 
investors. While U.S. investors stay on the sidelines, skilled 
jobs and manufacturing are moving to China, all incubated by 
the U.S. taxpayer.
    As the U.S. advances its energy and production distribution 
systems with notable progress in energy efficiency, the 
Council's recent report, Secure, asserts that cybersecurity and 
cyber resiliency must be at the center of grid modernization 
and nuclear plant monitoring. With 90 percent of our grid in 
the private sector, companies must adopt cyber hygiene, best 
practices, NIST standards, and the deployment of proven 
technologies to harden digital systems from pernicious 
cyberattacks. Underpinning all of these challenges is an 
overarching workforce skills gap that requires systemic 
reskilling. The Council's report, Accelerate, sets forth a call 
to action, a road map to turbocharge the competitiveness of the 
U.S. energy and manufacturing enterprise.
    First, the U.S. must level the federal and state regulatory 
playing fields to capitalize on the potential of nuclear energy 
and new technologies such as mini modular reactors, key 
components of a low-carbon clean energy portfolio. Utilities 
must be allowed to recoup a percentage of R&D investments in 
rate increasing. Modernizing the grid must, of course, 
encompass cyber resiliency.
    Second, we must lead in research and commercialization at 
scale of the critical technologies driving global 
transformation for our society, economy and national security. 
The Made in China Manifesto calls for massive investments in 
AI, supercomputing, gene editing, nanotechnology, blockchain, 
and yes, clean energy, not to mention microelectronics and 5G. 
We must invest and deploy the enabling digital infrastructure 
of the future including our leadership in advanced computing, 
exascale and the frontiers of quantum computing. We must expand 
our strategic national network of innovation hubs and regional 
testbeds such as Argonne Labs' Joint Center for Energy Storage, 
Berkeley Lab's Cyclotron Row, Lawrence Livermore's High 
Performance Computing for Manufacturing, Oak Ridge National 
Lab's manufacturing demonstration facility and PNNL's Good 
Modernization and Resiliency Center.
    Third, we must ramp up our game in workforce upscaling in 
concert with growing the number and diversity of a STEM-enabled 
workforce. The U.S. is at a critical moment with systemic long-
term productivity decline and the myriad of challenges I have 
touched upon. It is a time to reimagine and build a flexible, 
dynamic, responsive national innovation system that includes 
and rewards all Americans and that ushers in a new era of 
inclusive prosperity and security.
    The Council on Competitiveness is launching a national 
commission on innovation and competitiveness frontiers to 
optimize the policies and spur the initiatives to propel us 
toward that future, looking at the acceleration of the 
development and deployment of emergent technologies, leveraging 
the future of production, sustainable consumption in work, and 
optimizing the innovation systems that are hostile or enabling, 
such as finance, regulation, standards, competition policy, 
trade, et cetera.
    Madame Chairman, Ranking Member Manchin, we look forward to 
working with you and the members of the Committee to shape this 
important national initiative. Thank you for the opportunity to 
be with you today, and I look forward to answering any 
questions.
    [The prepared statement of Ms. Wince-Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
        
    The Chairman. Thank you for that. We look forward to that 
report.
    Mr. Faison, it is wonderful to have you before the 
Committee.

          STATEMENT OF JAY FAISON, FOUNDER, CLEARPATH

    Mr. Faison. Thank you. Good morning, Chairman Murkowski, 
Ranking Member Manchin, and other members of the Committee.
    My name is Jay Faison. I'm the founder of ClearPath. 
ClearPath is a 501(c)(3) organization that develops and 
advances conservative clean-energy policies. I started 
ClearPath because I thought our national energy policy debate 
had become ``drill, baby, drill'' versus ``keep it in the 
ground,'' and I thought there might be a better way.
    I found the 2018 National Climate Assessment deeply 
sobering. Forest fires are one example. On average, the annual 
amount of area burned has increased fourfold in the last 30 
years. PG&E, one of the nation's largest utilities, has 
declared bankruptcy as a result of their liability for recent 
fires. DoD's report on a changing climate released last month 
showed that 53 of the 79 military installations studied in the 
report are currently affected by floods and other impacts.
    Given the risks of climate change, what could be a bigger 
priority for DOE's national energy laboratories than developing 
the next generation of affordable clean-energy technologies?
    Heavy industry is now responding. Most major utilities have 
ambitious emission reductions goals. Senior executives from 
Southern, Shell and BP are beginning to link future bonuses to 
emissions targets. These actions make it clear that large 
energy companies understand that a low-carbon energy future is 
inevitable.
    Some would argue that we have the technologies that we need 
to solve for climate change. First, it's important to recognize 
that a molecule of CO<INF>2</INF> emitted on the other side of 
the world has the same impact as one emitted here. Since 2000, 
coal-power generation in China has nearly quadrupled. Bloomberg 
reports that China's plans for new coal plants roughly equal 
the size of the entire U.S. coal fleet. Abroad, China is 
financing another 100 gigawatts of coal in at least 27 other 
countries.
    So we have a choice. We can bet that the Chinese and 
Indians will close recently-built plants at the expense of 
economic growth or we can develop, demonstrate and export U.S.-
based emission control technology.
    Second, we should not put all of our eggs into one basket 
of technologies. It is unknown how far batteries and other 
forms of storage can fill in for renewables when the sun isn't 
shining and the wind isn't blowing. This is where the 
Department of Energy comes in. Many people are well aware of 
the Sunshine Initiative launched eight years ago. It set 
ambitious cost-reduction targets for solar panels for the year 
2020 and achieved its goals three years ahead of schedule.
    Most people are not aware of how DOE made the shale gas 
revolution possible. Decades of R&D coupled with a $10 billion 
alternative-production tax credit yielded breakthroughs in 
horizontal drilling, combined cycle turbines, diamond drill 
bits and 3D imagining that resulted in a 28 percent emissions 
decline. That same ingenuity that produced the shale boom can 
make gas fully clean.
    Last May, a company called NetPower successfully 
demonstrated a zero-emission natural gas technology that could 
transform the global energy sector. This new technology could 
capture all of its emissions at effectively zero cost.
    ARPA-E and Bill Gates-backed QuidNet is developing long 
duration storage solutions that could expand renewables. 
NuScale, a next-generation nuclear technology, could have 
demonstration reactors operational at Idaho National Lab in 
three to four years. These are the type of programs that will 
make a big dent in this enormous global problem.
    The last Congress accomplished more in clean tech 
innovations than people think. Successes include incentives for 
carbon capture, renewables, and advanced nuclear; record 
investments in R&D and streamlined permitting for advanced 
nuclear and hydropower.
    But what exactly are we shooting for? What does success 
look like? I'm a strong advocate for big, ambitious goals that 
deliver a full toolbox of clean and affordable energy 
solutions, smart investments in moonshot goal programs that 
deliver low cost, high performing, clean technology from basic 
research all the way through demonstration. Let's create 
stronger financing incentives to commercialized cutting-edge 
companies and deploy these technologies globally. Let's 
streamline regulation to get clean energy online quickly.
    Ambitious bipartisan cooperation on innovation is essential 
and attainable. In fact, it is the only chance our nation will 
have if it's going to play a significant role in the global 
solution.
    Thank you again for this opportunity, and I look forward to 
the discussion.
    [The prepared statement of Mr. Faison follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    The Chairman. Thank you so much for your contribution.
    Mr. Grumet, welcome.

             STATEMENT OF JASON GRUMET, PRESIDENT, 
                    BIPARTISAN POLICY CENTER

    Mr. Grumet. Thank you, Chairman Murkowski and Ranking 
Member Manchin and the entire Committee, for the privilege of 
being with you today as you start to think about the ambitious 
agenda I know you have for the next two years.
    I have burdened your staff with lengthy testimony that I 
will summarize in two overarching points. The first is that 
public and private investment is needed to sustain our 
remarkable energy dominance that the United States has achieved 
in the last few years, and the second point is that until we 
establish a shared national purpose and goal our innovation 
policy will lack the ambition and the resolve that are 
necessary for ultimate success.
    While a lot of the focus today is going to be on 
breakthroughs, I think we also have to recognize the importance 
of supporting near-term critical investments to improve the 
efficiency, the safety and the performance of our existing oil, 
gas, nuclear, coal, and renewable resources as well as our 
investments in grid and pipeline infrastructure. These are the 
components that are going to be necessary to sustain our 
current economic might and in fact buy the time we need for our 
innovation agenda to succeed.
    There are a lot of ideas in my testimony. I will just note 
two that I think that are particularly important to frame the 
debate, and the first is the core idea of the American Energy 
Innovation Council which in 2010 argued that we must triple our 
energy investment from roughly $5 to $15 billion a year. I 
recognize that that is a lot of money; but as Norm Augustine, 
one of our committee members and truly a former rocket 
scientist, likes to remind us, if your airplane is burdened, 
you don't drop weight by losing the engines. This is something 
the nation needs to do for our future.
    Second, we must design all of our policies, our 
investments, our incentives and our requirements, to encourage 
all forms of noncarbon energy. Recent efforts like the Clean 
Energy for America Act and state efforts in New York, 
California, and New Jersey are really good steps in this 
direction.
    I now want to turn to this broader question of national 
purpose. In my opinion, effective innovation requires clear, 
realistic national goals, a relatively stable policy 
environment, and a culture that is resilient to occasional 
failure. These are not easy conditions to meet in a competitive 
and closely divided democracy and they are almost impossible to 
achieve if this Committee and this Congress does not in fact 
come together around a broad and shared idea. It's remarkable 
what our nation can achieve when we have that kind of 
commitment.
    And while the analogy to moonshot may be overused, an 
aspect of it is also overlooked, and that is that before our 
space program was a historic success, it suffered horrific 
failures. January 27th, 1967, six years into the space program, 
a fire erupted on the launch pad killing astronauts Gus 
Grissom, Ed White and Roger Chaffee. Congress didn't turn on 
itself. It didn't restrict NASA funding or filibuster budgets. 
The country came together; 18 months later, we held our breath 
and three astronauts were put into space; and 10 months later, 
Neil Armstrong set foot on the moon.
    It is an understatement to acknowledge that we do not have 
a similar consensus in this Congress on energy and climate 
policy. I think there's broad support for promoting security, I 
think there's broad support for competitiveness, but the 
absence of a shared vision about whether and how to address 
climate change remains an intractable barrier to an effective 
policy.
    I firmly believe the U.S. must achieve net zero carbon 
emissions by midcentury, but I reject the notion that we can 
accelerate the future by messing up the present. After a decade 
of what I honestly believe has been reckless debate about the 
existence of the climate problem, we simply do not have time 
for a fact-free debate about the solution. What I think we need 
is a ``Green True Deal'' anchored in innovation that embraces 
all non-carbon sources and is designed to cushion the economic 
impacts and dislocations that are inevitable during the 
transition to a low-carbon economy.
    I see five broad pathways that can move us in this 
direction: advanced energy storage, advanced nuclear power, 
carbon capture and utilization, and storage for coal and gas, 
low-carbon transportation fuels, and, finally, direct air 
capture technologies that remove carbon from the air. This is 
an issue that I think needs more discussion, and the Bipartisan 
Policy Center is very focused on the potentials around direct 
air capture.
    If none of these technologies are price competitive and 
massively deployed in the next 30 years, I am not optimistic 
about the future. If all are successfully commercialized, we 
will dramatically strengthen the U.S. economy and literally 
save the world. With some reasonable combination of success and 
failure, I think we can actually provide a better future for 
our children, which actually has been the human tradition for 
10,000 generations.
    So I want to close where I began. Federal energy innovation 
investments are providing valuable economic and environmental 
benefits, but it is simply not possible to design a coherent 
energy policy by triangulating the vast and empty space between 
the Administration's resistance to acknowledge the climate 
problem and new progressive demands to solve it through 
renewable power in ten years.
    I know that no one on this panel wants to impose economic 
hardship on millions of Americans, and no one on the panel 
wants to condemn future generations to diminished opportunity 
or reduced quality of life. If you'll permit me as the clock 
winds down with just one personal reflection, I can't be in 
this room and not think of my friend Senator Pete Domenici who 
worked at the Bipartisan Policy Center until he passed away 
about 18 months ago. And I think everyone on this Committee 
remembers in 2005 and 2007 what Senator Domenici and Senator 
Bingaman did when they traded the gavel back and forth and 
passed remarkable legislation that set the stage for the 
renewable progress the energy efficiency, and the remarkable 
production that now makes us an energy exporter.
    And Senator Murkowski, I think you'll agree that when you 
think back, that was not a Committee of gentle souls. It was a 
group that had strong partisan disagreements. And when I think 
about Senators Domenici and Bingaman and I'm looking at Sam, I 
remember them having two things in common: they cared about 
facts and they happened to be from New Mexico. But they were 
about, because they cared about facts, to actually sustain huge 
battles that were anchored in evidence and fundamentally in 
friendship.
    And I think it is in this tradition, if this Committee can 
lead a national debate where both the climate problem and the 
potential solutions are grounded in science and engineering and 
economics, I am confident that American innovation will do the 
rest.
    It is a privilege to be with you, and the Bipartisan Policy 
Center hopes that we can help as you move forward with this 
agenda.
    [The prepared statement of Mr. Grumet follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    The Chairman. Thank you. We appreciate that message and, 
again, the reminder of the leadership of Senator Domenici 
particularly when it came to what we refer to as a nuclear 
renaissance. He believed in it, and he advanced it in a 
significant way.
    Your challenge to us is good and appreciated. We can have 
great debate about the matter of climate change. I have adopted 
a new phrase that was provided to me by one of our military 
leaders in Alaska. He says, ``I'm not a scientist, but I am a 
master of the obvious.''
    Let's go to Mr. Wood.

STATEMENT OF JAMES F. WOOD, INTERIM DIRECTOR, ENERGY INSTITUTE, 
                    WEST VIRGINIA UNIVERSITY

    Mr. Wood. Chairwoman Murkowski, Ranking Member Manchin and 
members of the Committee, thank you for the opportunity to give 
testimony and to answer your questions.
    The WVU Energy Institute serves to facilitate collaborative 
and innovative solutions for the energy future of West Virginia 
and the United States and also supports sponsored and grant-
funded research programs and seeks ways to commercialize 
intellectual property at the university.
    From 2009 to 2012, I was the Deputy Assistant Secretary for 
the Office of Clean Coal and Carbon Management in the U.S. 
Department of Energy's Office of Fossil Energy. In that 
position, I was responsible for the agency's coal research 
program and the large demonstration projects co-funded with 
industry under the third round of the Clean Coal Power 
Initiative.
    West Virginia University is a public, land-grant, research-
intensive university founded in 1867. It's designated an ``R1'' 
Doctoral University by the Carnegie Classification of 
Institutions of Higher Education. Funding for sponsored 
research programs and grants exceeded $185 million in 2017. In 
addition to the Energy Institute, the Morgantown campus also 
houses the Center for Alternative Fuels, Engines, and 
Emissions, which we call CAFEE, which discovered the Volkswagen 
diesel engine emission software issue that allowed its diesel 
engines in test mode to meet emissions compliance standards but 
to operate out of compliance when not in test mode.
    Along with Ohio, Pennsylvania, Western New York and 
Southeastern Kentucky, West Virginia shares portions of huge 
natural gas and natural gas liquids in the Utica and Marcellus 
shale formations. West Virginia desires to harness the economic 
value of these reserves to grow the economy, attract industry, 
provide jobs, improve education opportunities and increase the 
wealth of its citizens.
    Examples of West Virginia University's innovative research 
activities that support these aspirations include:
  --Developing concentrated rare earth oxide extraction 
        processes from U.S. coal mine wastes. This work is 
        being done in collaboration with Virginia Tech and 
        Rockwell Automation. WVU has constructed a lab scale 
        operation producing commercial concentrations of rare 
        earth oxides from mine sludge and acid mine drainage. 
        Rare earths, as we know, are critically important to 
        defense and industrial products and are largely 
        produced in other countries that set prices and control 
        availability.
  --An area of promising research at WVU involves the replacing 
        of high carbon-emitting steam methane reforming 
        processes with catalyst thermochemical conversions of 
        methane to CO<INF>2</INF>-free hydrogen and solid, 
        highly pure crystalline carbon. We are collaborating 
        with Pacific Northwest and Southern California on that.
  --Development of techniques and technologies to integrate 
        state-of-the-art down-well innovative fiber optic and 
        micro-seismic sensors; improvement in data collection, 
        and production tools with advanced big data and 
        machine-learning applications for accurate reservoir 
        characterization and modeling of the Marcellus and 
        Utica shales.
  --In conjunction with National Energy Technology Laboratory, 
        we are developing tools and techniques and above-well 
        sensors that detect even small releases of greenhouse 
        gases during the stimulation, drilling or production of 
        operating shale wells.
  --We developed complex combustion systems that burn fossil 
        fuels in vessels containing inexpensive oxidants like 
        iron oxide and aluminum oxide, models that can be used 
        to develop technical solutions for combustion without 
        air, which may generate pure, dense phase supercritical 
        CO<INF>2</INF>, ready to transport to safe storage 
        locations or for reuse in enhanced oil recovery at 
        wells that no longer have sufficient pressure to 
        continue producing.
  --Research into technical and economic advances of renewable 
        geothermal sources of energy. It turns out Eastern West 
        Virginia has valuable resources of geothermal energy, 
        and WVU in conjunction with Lawrence Berkeley, Cornell 
        and West Virginia National Guard are researching 
        designs for the deep direct use of this resource on 
        campus.
  --WVU also led tri-state efforts with Ohio and Pennsylvania 
        Geologic Societies and State Departments of Commerce to 
        undertake rigorous sub-surface analyses of proposed 
        Appalachian Storage Hub locations for natural gas 
        liquids that will greatly reduce fugitive emissions for 
        shale gas produced in Appalachia as compared to 
        emission releases if that gas was transported to hubs 
        south or east of Appalachia.
    The Advanced Coal Technology Consortium managed at WVU is 
one of five consortia created through a bilateral protocol 
signed in 2009 between the United States Department of Energy 
and two agencies of the People's Republic of China. West 
Virginia's role in managing this consortium gives the 
university good visibility into China's research and 
development on solutions to carbon emissions and coal 
byproducts. Consortium members include University of Wyoming, 
the University of Kentucky, Washington University at St. Louis, 
several national labs and many private sector companies.
    This research that is undertaken by the consortium includes 
advanced combustion technology including chemical looping and 
pressurized oxy-combustion and post-combustion carbon capture 
technologies and techniques including micro-algae absorption of 
CO<INF>2</INF> with co-production of medicinal chemicals.
    West Virginia is committed to managing active, innovative 
and outcomes-based research that will improve the carbon 
footprint of the resources available in the Appalachian Basin 
so that industry and commerce may continue to grow and provide 
opportunities to its citizens.
    Thank you for your attention.
    [The prepared statement of Mr. Wood follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Mr. Wood. Very interesting and 
sure to get us charged up for the New Year as we think about 
the goals and outlines for this Committee. But so many of us 
are talking about where we are going with technology, so the 
focus that you have provided here this morning is good.
    I was looking, Under Secretary Dabbar, at the 75 
Breakthroughs, and I think it is just a good reminder to us 
what comes out of our national labs. We all recognize the 
benefits that come from the supercomputing, but it is 
everything from working on photosynthesis to the protein data 
bank to powering NASA spacecraft to making refrigerators cool 
to discovering 122 elements, improving automated steel, the 
maglev train, the levitated train with magnets; early universe 
quark soup (I don't know what that one is), good and bad 
cholesterol. I mean it really is a reminder to us of the 
significance, and really so many of the day-to-day applications 
that then follow from the benefits of those national labs.
    Secretary Moniz, again, I appreciated the conversation that 
we had yesterday about the Breakthrough Energy Report, and I 
look forward to absorbing that whole thing.
    I am looking at your one-page handout here, as you talk 
about increasing and better targeting public investment. This 
is something that, as we look at the panel, is very key to it 
all.
    But the statement that you have here is the government 
needs to better target investment in solutions that have the 
highest breakthrough potential and to do so at the most 
critical times in their path to commercialization. Absolutely 
positively agreed. Our problem around here from a policy 
perspective is we have this tendency to pick winners and 
losers. We decide who is going to be the favored child, if you 
will. And so when you are from the investment side of it, you 
want to be where you know that you are not going to be running 
up against the political or the policy friction so you go for 
those safer bets.
    How do we do a better job of making sure that it truly is a 
more even playing field? I don't think that we should be the 
ones that are targeting the best investment solutions, because 
I am not sure that we know what it is. I think you all know 
more about that. Secretary Moniz, if you can address that--and 
anybody else who would like to speak to this--because I think 
it is a key part of how we move forward with these great 
technological opportunities. If you don't have the investment, 
it is hard to figure out how to make that go forward.
    Dr. Moniz. Thank you, Madam Chair.
    First of all, let me reassert what Mr. Grumet said, that--
and as you know, I've been a long-standing supporter of the so-
called ``all-of-the-above'' approach. I think we really need to 
work on all of the low carbon pathways that we can see in front 
of us.
    The Chairman. I like the fact that we are calling it carbon 
management.
    Dr. Moniz. Yeah. So the----
    The Chairman. I think it is important.
    Dr. Moniz. I think another point is--and this goes back to 
the regional innovation also that we advocate--that there is no 
single low carbon one-size-fits-all solution. The resources, be 
they in terms of physical resources, the innovation resources, 
the nature of the industries in different regions are in fact 
quite different, and what we need to do is have the full quiver 
of arrows for which low carbon solutions can be fit to purpose 
in different regions of our country and in different countries.
    Now, I would say at some level--I mean all the elements of 
the portfolio that we discussed at some level are, I would say, 
in the Department of Energy's portfolio, but we think that 
there is a significant reweighting that's needed. There is a 
significant need to focus on different time scales for moving 
to the low carbon economy, and, frankly, that is going to be 
very hard to do if we cannot increase the resource level that's 
available at the federal level, at the Department of Energy, at 
other departments as well. For example, I mentioned biological 
sequestration earlier. The Department of Agriculture has an 
enormous role to play.
    And as I said earlier, that's easy to say and hard to do in 
the time of fiscal challenge, and that's why I think we need 
creativity on adding also new funding streams. We've done that 
not so long ago with some of the royalties from oil and gas 
production going into innovation. Years ago there was the FERC 
allowing, if you like, the surcharge, a small surcharge on 
interstate gas transmission to fund R&D, critical for what 
became the unconventional natural gas revolution.
    So I think, again, this Committee can play a really 
important role in thinking about these creative approaches. We 
need that portfolio diversification. We need it to focus on 
these breakthrough opportunities, and that's going to require 
both design of the portfolio and, as I say, I think some 
significant additional resources.
    The Chairman. We have a lot to talk about here. I am going 
to go to Mr. Grumet real quickly, and then I am going to step 
out. I have asked Senator Gardner to sit here with Senator 
Manchin as we go through the rest of the questions, and then I 
am coming back.
    Mr. Grumet. Alright.
    The Chairman. So Mr. Grumet----
    Mr. Grumet. Well, thank you for letting me extend your 
time.
    I think what Secretary Moniz said is very important, which 
is we cannot pick technologies but we also aren't agnostic. Is 
the ``all-of-the-above'' toward a particular outcome? I believe 
low carbon has to be one of those outcomes. But that's what we 
need you all to do.
    I think sometimes people just say ``all-of-the-above,'' and 
that's like yeah, we just don't really--just throw money at 
everything. And I know that is not what this Committee believes 
and will raise but not answer what I think is the hardest 
question, which is the billion-dollar stair steps. You can 
invest a million dollars in a software app and provide a 
valuable service to the United States of America. And energy 
choices are billion-dollar choices, and that's hard and it's 
expensive, and we need to go all in on some things that aren't 
going to work, and that's really hard.
    There's a culture of innovation. I've said if you're an 
investor and you're right 9 out of 10 times--I'm sorry. If 
you're an investor and you're right 1 out of 10 times, you're a 
billionaire; if you're a DOE official and you're right 9 out of 
10 times, you're potentially indicted. So there has to be a 
different imagination of the risk profile that's going to be 
required to succeed.
    The Chairman. I greatly appreciate that.
    Senator Manchin. First of all, thank you, Madam Chairman, 
and I thank all of you for your wonderful testimonies.
    There is a lot going on, and I know you have been hearing a 
little bit about the Green New Deal, and there is now, I think, 
a resolution coming out of the Senate on our side. If somebody 
wants to comment on that--and I think you all have in your 
testimonies to a certain extent, saying that this is in a 
perfect world an ideological belief. But in the real pragmatic 
world that we are living in right now, are we able to get 
there, what timeframe are we going to need to get there, how 
much are we going to have to invest, and is the rest of the 
world going to come along with us? Those are all the big 
``ifs.''
    Right now, I think there is about $40 million or $40 
billion for loan programs at DOE?
    Dr. Moniz. There's approximately $40 billion left.
    Senator Manchin. $40 billion. And there is about $11 
billion that we have in research and development. Is that 
adequate to do the job? The $40 billion has been there for 
quite some time, I am understanding. We have not had a run on 
the loan programs.
    Mr. Dabbar, you might want to speak on that, where we are 
and why there has not been more of a demand for that.
    Mr. Dabbar. Yes, Senator. So approximately $11.7 billion a 
year is spent in non-defense R&D across the lab complex and, as 
you know, we are also a contract researcher. We actually get 
people who come in and hire us for another $2.2 billion a year. 
So that's the scope. It is a significant scope. It is larger 
than any corporation in terms of R&D.
    Obviously, we have the loan guarantee program. The loan 
guarantee program in general is there to help support specific 
projects. In the big scheme of the capital markets, it's a lot 
of money, but it's not a lot of money in the scheme of the 
private markets. And so it is there really to support.
    Senator Manchin. I am just asking why there has not been 
more of a demand for the $40 billion, because I think it has 
been there for quite some time----
    Mr. Dabbar. Yeah.
    Senator Manchin. ----and we have had a surplus. We have not 
had anyone either coming and asking for it or being a part of 
that loan program.
    Mr. Dabbar. Yeah, Senator. In general, I think a lot of the 
times the way the program has been managed, it's about waiting 
for people to come to it. And at least one of the things that 
we've been trying to do--and I have some experience in this--is 
to actually be proactive and reach out. So some of the members 
of our loan program have actually been going to some of the 
trade conferences where the power developers who actually go 
out and build power plants for a living in the energy complex, 
to let them know that we're available, how to do it. Because a 
lot of times people don't know how, so we've been proactively 
reaching out.
    Senator Manchin. Dr. Moniz.
    Dr. Moniz. Yes. Thank you, Senator Manchin.
    First of all, the loan program, it has the order of $30 
billion in play and I would say it's been extremely successful.
    But Mr. Grumet mentioned that risk appetites are such that, 
you know, one investment defaults and the whole portfolio is 
talked about, and yet it's been extremely successful as a 
portfolio.
    Now, going forward, I agree with Secretary Dabbar that 
reaching out is important. For example, there were investments 
made successfully in auto battery manufacturing. But reaching 
out to the supply chain now is an example of something that can 
be done. Using the program for advanced nuclear could be 
something very important in the next years.
    But I'd like to emphasize a third area, and I think the 
Committee might help in clarifying the availability of the 
remaining authorities for energy infrastructure. The 
Administration and, I believe, the Congress are very much 
supporting energy infrastructure. Well, here we have $40 
billion of authority which, when matched with private sector 
equity investing, for example, we could have $80 or $100 
billion of energy infrastructure investments. Let's get on it. 
And that doesn't require an appropriation.
    Senator Manchin. Dr. Moniz, thank you.
    Real quick, and I have one final question for Mr. Grumet, 
but--
    Mr. Wood, as far as the work you all have been doing on 
extracting rare earth minerals that we need so desperately in 
our country--because right now we are depending on China as I 
understand--how is that coming along, and when do you think 
that we could be commercialized to the point that we could have 
our own supply, if it is possible, Jim?
    Mr. Wood. It's coming along a lot faster than I would have 
thought six months ago. We have built a laboratory in the high 
bay at WVU. We have staffed that with some people. We have run 
in some acid mine drainage and some sludge, and we have 
produced better results than we told the Department of Energy 
we would produce when we got the cooperation agreement signed.
    We're now taking a trailer and taking it out on the road to 
acid mine----
    Senator Manchin. Okay.
    Mr. Wood. ----locations and producing oxides of rare earth. 
The quality and the concentration of rare earths that we are 
getting of the process that we have designed and the 
intellectual property that we have, which we haven't protected 
yet, is very good, better than we thought it was going to be, 
so I'm very optimistic that----
    Senator Manchin. Right.
    Mr. Wood. ----this process as relates to mine wastage is 
going to be commercial in a year.
    Senator Manchin. Wonderful.
    Mr. Grumet, just a final question very quickly. Being the 
bipartisan committee that you are and the group of people you 
put together in your organization, how can you best help us as 
a Congress and the Senate? We have a lot of our colleagues 
focused on the Green New Deal. And it is very--you know, we are 
excited about people having all different ideas of how we get 
to where we can save our planet and decarbonize, but also in a 
practical way.
    What is your best way of making sure that we are all 
working off the same set of facts? Because right now, I think 
there are some people moving in their opinions and trying to 
create their own facts to justify their opinions versus working 
off a set of facts from which we can all find a solution.
    Mr. Grumet. Senator, I think the optimistic take right now 
is there is now symmetry of magical thinking about the climate 
change debate on the left and on the right.
    Senator Manchin. Good.
    Mr. Grumet. And the only way that's going to change--and I 
think this is something I think you are uniquely good at--is if 
members enforce against their own edges. It does nothing to 
have the Sierra Club and the Heartland Institute yelling at 
each other.
    I think most members of the Republican party believe that 
climate change is real but tend to avert their eyes when people 
say it's not, because like why pick up the fight? And I think 
most all members of the Democratic party know we are not going 
to eliminate fossil fuels in 10 years or go to 100 percent 
renewables but they kind of avert their eyes, right, because 
like that's where the energy in the party is and, you know, no 
one wants to be on the wrong. Then we just seed it to the 
edges. Alright?
    I think this Committee fundamentally knows that both those 
things are wrong and that the answer requires an evidence-based 
approach to both. It's not popular to say it, but the only way 
we're going to make progress is if you do.
    Senator Manchin. Thank you.
    Senator Gardner [presiding]. Thank you, Senator Manchin.
    Senator Hyde-Smith.
    Senator Hyde-Smith. I want to thank the panel today for 
your expertise. You're sure going to be helpful when we are 
deciding on legislation to vote on.
    Mr. Faison, you know as we well know our revolving needs 
will require innovation and significant investment in the 
energy sector. And in his written statement, Under Secretary 
Dabbar had discussed the essential need for the basic research. 
In your opinion, how much involvement should DOE have in 
research and new technologies?
    Mr. Faison. I think just coming at this from an outsider's 
point of view, somebody who does not have all the insights, 
obviously that are here on the panel, I have always been 
confused by the distinction between basic research and applied 
research.
    I don't think the Chinese have the same distinction. I 
think they are focused on outcomes. I've heard one guy say one 
time that scientists look for outcomes and business people look 
for--scientists look for learning and business people look for 
outcomes. And I think that we need to look for outcomes and 
then plug the holes that we have in that technology-development 
ranking system so that we can compete with the Chinese.
    I'll give you one example: A123 batteries. We do a great 
job at the basic research. Companies spin out and then they go 
to market. There's no incentives for their products, there's no 
financial support; they're kind of out on their own. They 
declare bankruptcy, and the Chinese buy them for cheap and 
scale them up. That's been a pretty consistent happening, and I 
think that's something we need to fix.
    Mr. Grumet. Senator, if I could just add one insight on the 
scale of the challenge, and again it comes back to the unique 
characteristics of this industry that the Secretary talked 
about.
    The energy industry does a ton, but it devotes--0.3 percent 
is total capital to R&D; pharmaceuticals, about 20 percent; 
electronics, about 10 percent--and this is because they are 
making rational choices. The industry does not have the 
capacity to recoup the benefits of those early investments. 
They are expensive; they take a long time.
    And so when I think we think about imagining our innovation 
across the entire portfolio of what the government cares about, 
I think energy is going to have to play a bigger role. The 
government and the private sector are going to have to work 
together and understand that the energy industry is no 
different than the pharmaceutical industry if we're going to 
make this progress.
    Dr. Moniz. Mr. Chairman, may I just have a comment, because 
it goes directly to the Senator's question and Mr. Faison's 
statement about the basic and applied?
    Frankly, the whole innovation chain is much more integrated 
with all kinds of feedbacks than is generally acknowledged. 
It's not some linear thing that happens. And a consequence of 
that is one reason in our report why we emphasize that the 
Federal Government and the Department of Energy are one very 
important player. There are others. But that player, in 
particular, really needs to work across the innovation chain, 
not fall into the trap of this false linear separation. And in 
doing so, that will address part of the issue that Mr. Faison 
announced, that we cannot leave the ``playing field'' beyond 
the basic research to a place like China. We need to compete 
along that entire feedback, feedback system.
    Mr. Dabbar. Maybe I should comment since it was a bit about 
us across the board here.
    You know, I think, Senator, this goes into the balance 
between curiosity and usefulness, and the way we like to think 
about it in terms of a portfolio of the different investments 
that we're doing. We certainly pursue a lot of fundamental 
understanding of physical phenomena such as quark and gluons 
and how they hold together, neutrons, and not knowing exactly 
where they go in terms of that research, and then the balance 
of looking at things that have practical and useful 
applications.
    I'll give you an example. Our computing power--this is a 
non-
energy example but something a lot of people may not know. If 
you look at the computing power and the imaging, a lot of which 
was used for atomic level structure, that some people basically 
at one of the weapons labs at Livermore were poking around 
about and figured out that they could use the same computing 
power and the same imaging to sequence genes. And most people 
don't realize the Human Genome Project was predated by 
something called the Human Genome Initiative which was started 
at Lawrence Livermore National Labs, and they brought that to 
the National Institutes of Health and it spread from there. So 
it's a non-energy example.
    But one interesting thing about the national lab complex, 
and people don't really understand if you don't spend a lot of 
time here--a lot of people do spend a lot of time there--it's 
actually quite entrepreneurial. We allocate the capital, the 
budget that you give us and we send it down to the principal 
investigators and we give them the flexibility within bounds of 
certain areas that you guide and we guide them on and then we 
kind of let them go. And a tremendous amount of this innovation 
that people are talking about here today is based on the 
entrepreneurial spirit and the flexibility that we give them. 
And as the Senator, as the Chairman announced, there's a long 
list of these examples, far too long to get into.
    Senator Gardner. Thank you, Senator Hyde-Smith.
    Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. This is a very 
important discussion. Thank you to all of you. In fact, I can't 
think of a more important discussion, and there are a lot of 
things that I care about.
    Mr. Grumet, first of all, I could not agree with you more 
about a national goal and understanding of where we are going 
and the sense of urgency that we need to have to get there and 
that we need--it is not ideological. We need to be looking at 
the practical fact of how we cut carbon pollution so that we 
are addressing the threats to, frankly, our way of life, and 
taxpayer costs. We are seeing it every day in extreme weather, 
health risks, and everything else. It is clear what is 
happening. So I hope we can do that, and I think this Committee 
could come together to do that.
    And also, Ms. Wince-Smith, I appreciate your focus. 
Everyone talked about investments, but thank you for talking 
about best investments and advanced manufacturing, which we 
know a lot about in Michigan. I could not agree more with you 
about the focus on workforce development. I think that, from an 
economic standpoint, certainly in my state, it is the major 
barrier right now to moving forward in terms of where we need 
to go on the jobs front. So I appreciate that very much.
    I do want to comment on how Michigan has benefited from a 
great industrial revolution, where 100 years ago we embedded 
incentives in the tax code on oil, gas, and coal. We benefited 
from that. We also understand now that we are paying the price 
of carbon pollution, and we better figure out a different way 
to do this where we can still prosper economically, which is 
what we are now doing.
    And so Joe, when we talk about jobs, there are 8,000 parts 
in a big wind turbine and we are prepared to make every single 
one of those in Michigan. But you can do some in West Virginia 
too.
    There are jobs, and I just want to make a point about how 
we say we should not pick winners and losers. A hundred years 
ago, we picked winners. They are embedded in the tax code. Even 
in the new tax laws, there is a new $4 billion tax benefit for 
oil and gas. So it is amazing that wind and solar are doing as 
well as they are. They are incredibly competitive. And I am all 
for not picking winners and losers if we are really unleashing 
the private sector.
    I have to, coming from Michigan, talk about the 
transportation sector and ask a question. We know at this point 
the transportation sector generates the largest share of 
greenhouse gas emissions and, according to EPA, 90 percent of 
the fuel is still petroleum-based. We have to be very serious 
about what we are doing. There are great new technologies. I 
appreciate very much that our auto manufacturers are investing 
aggressively in new advanced technologies over the next five to 
ten years. This is very important. But they cannot do this, 
just as in any other country, by themselves without a public-
private partnership. And at the moment, we have 1.3 percent of 
the U.S. light-duty fleet in electric vehicles or hybrids, and 
yet we have to get that to about 10 percent to be sustainable 
here in terms of the economics of it, and that relates to 
charging stations, tax credits to continue, and so on.
    So one other thing before a question, and that is China. 
While they are doing everything--they are doing all-of-the-
above, right? Everything. But one of the things they are 
doing--this last year they spent $7.7 billion on electric 
vehicle subsidies alone, and they are not debating whether or 
not they are going to put in infrastructure. I mean no other 
country is debating that at this point. And now they are going 
to hydrogen-powered vehicles.
    So when we look at this, and I will start with Dr. Moniz, 
what policies should we be pursuing to pursue the investment in 
the widespread adoption of advanced vehicles, and are these 
investments critical to ensuring that we remain a leader and 
can be successful in this area?
    I have asked Dr. Moniz; and then, Ms. Wince-Smith, if you 
would like to chime in and anyone else.
    Dr. Moniz. Thank you, Senator Stabenow. The transportation 
sector is indeed one that we really need to focus in on because 
of its--it's the data.
    Senator Stabenow. Right, right.
    Dr. Moniz. It is the biggest emitting sector and it is not 
the easiest sector to decarbonize.
    It may be worth putting something in perspective in the 
sense that if we look at say California, which has always 
played a major role in advancing the transportation issues that 
the goal of California is five million zero-emission battery 
vehicles basically in 2030. But we should have the context. 
That's out of 35 million light-duty vehicles, not even counting 
heavy-duty vehicles. So all of these themes come together just 
in those facts.
    Now, to make these transformations occur, infrastructure is 
a huge issue. So obviously for electric vehicles the charging 
infrastructure is a major challenge. That is relatively easy 
compared to some other infrastructure challenges. If we went to 
hydrogen, for example, much more expensive, much more 
difficult; and yet it's chicken-and-egg. We're not going to get 
there without the infrastructure being built, and that may be 
especially important for things like heavier vehicles than the 
light-duty vehicles, so that's a big challenge.
    But then again, in the innovation arena, we could have 
breakthroughs that really minimize some of those challenges in 
the sense of, okay, suppose we do develop an affordable, low 
carbon substitutable fuel, a hydrocarbon, basically, fuel but 
with different feed stock. Well, suddenly the infrastructure 
isn't the issue; it's the innovation of the fuel itself. And 
that goes into this, I think, theme: that we need--it's a 
relatively inexpensive investment given to work across the 
board on those issues in terms of the prize that would be at 
the far end.
    So I think all of that's important. And that's where again 
going back to the earlier statement--it's not the only example; 
I don't want to beat a dead horse--but something like the loan 
program might be an important way of providing debt financing 
for getting some of this infrastructure built.
    Senator Gardner. Thank you, Mr. Secretary.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Mr. Chairman, 
since my earliest days in Congress I have been diligent about 
developing legislation and policies to advance carbon capture 
technology that many of you are aware of. My home State of 
Wyoming is a national leader in oil and gas and coal 
production. I am very supportive of all of these industries as 
they keep our world running, and they provide critical jobs and 
revenue for Wyoming.
    In my view, it is necessary that we continue to develop 
traditional energy sources while simultaneously pursuing 
advancements in carbon capture technologies. We do not have to 
choose between these two goals, and, in fact, I have a record 
of developing these policies in a bipartisan and bicameral 
manner. So I want to emphasize the importance of developing 
successful technologies and practices here in the United 
States. When these technologies are successful at home, we can 
then export these discoveries around the world.
    So today, along with my friends and colleagues, Senator 
Whitehouse from Rhode Island and Senators Capito, Duckworth, 
Kramer, Smith and Manchin--thank you, Joe--and then Senator 
Carper as well, we are introducing again the USE IT Act. This 
bill supports carbon utilization and direct air capture 
research, and it encourages the commercial use of man-made 
carbon dioxide emissions. The USE IT Act encourages the 
development of carbon capture, utilization, and sequestration 
facilities and carbon dioxide pipelines. In our last Congress, 
this bill had broad bipartisan support, and I look forward to 
passing the USE IT Act into law this Congress.
    My state is also the home to the Integrated Test Center, 
the ITC it is called, in Gillette, Wyoming. This unique 
facility allows for research and testing at an active power 
plant, allowing for real world discovery. I am proud of what is 
going on in Gillette, and it is becoming the world's Carbon 
Valley. I will continue to work and lead the policy discussions 
here in Washington to advance these groundbreaking solutions.
    In addition to using Wyoming's vast oil, gas and coal 
resources, uranium mined in my home state can provide clean, 
affordable electricity through the development and deployment 
of advanced nuclear technologies which have been mentioned 
today. Last Congress, the bill that I introduced, the Nuclear 
Energy Innovation and Modernization Act, was signed into law 
with the purpose of doing just that. So I am looking forward to 
the innovations that America's nuclear scientists and engineers 
will create as a result of this legislation.
    Secretary Moniz, earlier this week you discussed a recent 
report issued by your nonprofit, the Energy Futures Initiative. 
You said that a 100 percent renewable system by 2050 is not 
politically or economically realistic. I visited with Bill 
Gates last weekend about the same issues. You also mentioned 
the importance of natural gas in balancing the energy mix into 
the future. This is an abundant, affordable fuel source, that 
yields less carbon emissions as compared to other fuels.
    Can you talk about how you view the use of traditional fuel 
sources in the short-term and then in the long-term, realizing 
this gap continues to exist?
    Dr. Moniz. Thank you, Senator Barrasso.
    I believe that statement on the all renewables was in the 
2030 timeframe.
    Senator Barrasso. I am sorry, yes.
    Dr. Moniz. However, also in the longer-term, I do think, as 
I said earlier, that there are going to be different kinds of 
low carbon solutions elsewhere. And, for example, I strongly 
agree with your position on the importance of developing what 
we call the large-scale carbon management options like carbon 
capture utilization, sequestration--not only geological 
sequestration but biological sequestration--capture from both 
concentrated and dilute sources like direct air capture, for 
example; utilization in major commodities.
    So this is a critical need. I believe, and the IEA has 
stated, that we are going to need those tools, the CCUS tools, 
if we are going to, in a reasonably economic fashion, be able 
to meet the very, very low carbon goal.
    I'll just add that I think we need a lot more work on novel 
carbon capture technologies because that's actually the big 
cost center in the entire--in the entire chain. We need a lot 
more basic science in CO<INF>2</INF> utilization at gigaton 
scale. And on sequestration, we do need more science done. But 
we also need to think about--and this is something which of 
course has come up in the nuclear context a lot as well--we 
need to think about public attitudes. The ability to--to 
sequester gigaton carbon dioxide annually, for example, is a 
big challenge I think in the--it will be a big challenge in the 
public view about that much underground storage.
    Senator Barrasso. I only have a few seconds left, and I am 
going to go to Mr. Faison. I have a question for him.
    Reducing greenhouse gas emissions is a global challenge. 
The U.S. is capable of developing the technologies to address 
climate change. As other countries grow their economies, they 
should be using the best possible technology to capture 
emissions. As the Asian countries continue to grow, how quickly 
can we quickly develop and deploy the emission control 
technologies that we are going to be leading on?
    Senator Gardner. Would you press your microphone, please?
    Mr. Faison. Thank you for the question, Senator Barrasso. 
And also thank you for your thoughtful op ed in the New York 
Times and your sponsorship of the Nuclear Innovation--Energy 
Modernization and Innovation Act. Really important.
    As far as scaling up quickly, I've been to the centers out 
there in Wyoming and we are huge proponents of that. I think if 
you look at the National Carbon Capture Center, the other major 
public-private partnership in Wilsonville, Alabama, we are, I 
think, severely underfunded in those areas. And so one I think 
it's not invested in at the scale and level that it should be 
given that Asia's coal is really sort of, at least in the 
energy sector, you know, a majority of the global greenhouse 
gas emissions growth that we have worldwide.
    So interestingly, you're seeing these cross-cultural 
opportunities. For example, I met the India Prime Minister of 
Coal in Wilsonville, Alabama, and he brought a whole team over 
to learn from us. They want to catch up. Their oil wells are 
depleted. They could use this to domesticate their oil supply 
and grow their coal technology, and they're going to do it 
regardless of the impact. And so there are some green shoots, 
and I think we just need to build on that--more money and more 
attention and focused goals.
    Senator Barrasso. Mr. Chairman, my time has expired. I know 
the Secretary has had his hand up, so----
    Senator Gardner. Mr. Secretary, briefly.
    Mr. Dabbar. Yes. Thank you, Senator.
    I want to point out one particular area at NETL in West 
Virginia and in Pennsylvania that we have going on that I am 
particularly excited about. Obviously a lot of carbon capture 
just deals with basically how do you screen out the molecules. 
And one of the things that we've done is using the computing 
power that you all have given us is to be able to go through a 
whole series of materials to identify what sort can screen out 
the molecules of carbon dioxide basically in a film. And we can 
go through millions of different types of designs of materials 
and be able to narrow it down, so before we get to the lab, we 
have a pretty good idea if it is going to work, and we are 
using artificial intelligence to help drive that.
    We have a series of material in which there is a 
possibility--and I do not want to go too far because this is 
research--that the sort of film that we have developed that 
could just literally screen out the molecules could be in the 
range of $40.00 a ton. And when you ask the researchers how far 
could you push that, they think they can push it even farther 
in terms of lowering the costs of screening out. So when you 
stop and you think about the practical realities of the 
research that we are doing, that we are doing at the labs that 
you all fund and we start getting down to realistic numbers, 
when people start talking about things and other policies--and 
once again, I think, as we've talked about, I think technology 
can be the solution--that's a very particular one that I want 
to make certain people kind of hear about which way we're 
going, and I'd like to thank you for the support of that.
    Senator Gardner. Thanks, Mr. Secretary.
    Senator Heinrich.
    Senator Heinrich. I am going to continue along with that 
with Under Secretary Dabbar.
    I want to ask you, when it comes to platforms, have you or 
the Department of Energy looked at AI and machine learning as a 
way to more effectively manage the grid and do it from a point 
of view of responsiveness and lower carbon intensity?
    Mr. Dabbar. Yes, Senator. So we have several programs using 
AI and machine learning for grid and energy management. I'll 
give you three examples.
    First of all, the smallest one which is building 
management. So there's probably no one running this building 
right now in terms of when to turn on and off the lights, when 
to turn on and off the air conditioner, so it's highly 
inefficient in the big scheme of things. It takes a pretty 
simple artificial intelligence set of data to develop an 
algorithm to run this building based on data of when people 
come and go and so on. We have a series of research at 
Berkeley, at Lawrence Berkeley, on that.
    Number two, in Washington State at Pacific Northwest Labs--
it's a leader in grid management--we work with the Bonneville 
Power Authority. It's a test-bed utility that we own. And we 
have built a series of machine learning algorithms to collect 
all the data of all the municipalities, all the interconnects 
down to California, all the wind, all the weather, day after 
day of data. And for example, for our dams that we have, what 
the buildup of the water is. And it is giving us now--we are 
working with that and Bonneville to predict any problems and to 
give us direction on how to dispatch our dams.
    As we all know, grid management has historically been three 
people sitting in a----
    Senator Heinrich. Right.
    Mr. Dabbar. ----control room dialing and using their 
judgment.
    Senator Heinrich. Yep.
    Mr. Dabbar. This should be a machine learning algorithm. 
Maybe I won't go drop so far as artificial intelligence and 
handing----
    Senator Heinrich. Right.
    Mr. Dabbar. ----it over completely, but clearly we are, and 
it should be, all the grid should be machine learning.
    Senator Heinrich. Great.
    Direct air capture. Maybe I will start with you, Dr. Moniz, 
and then go to other folks if they want to add to that. What is 
the state of technology, what is the role of policy in moving 
that forward, and what are the best policy tools to get that to 
a place where it is actually going to be more economically 
attainable? Because we are sitting at 411 ppm right now.
    Dr. Moniz. Say that again?
    Senator Heinrich. We are sitting at 411 ppm and----
    Dr. Moniz. Oh.
    Senator Heinrich. ----there is more every year. We are way 
past our carbon budget. So if we are going to do something 
about this, we are going to have to get direct air capture up 
and running.
    Dr. Moniz. I would add, Senator Heinrich, that we are at 
411 or so in terms of CO<INF>2</INF> but we should also 
remember that the other----
    Senator Heinrich. All of our short-term----
    Dr. Moniz. ----greenhouse gases, which really----
    Senator Heinrich. Methane----
    Dr. Moniz. ----with the very imperfect equivalence, which 
is above 450 already.
    Senator Heinrich. Yes.
    Dr. Moniz. So that's one reason why I agree with what I 
think you said implicitly, that we are going to need these 
direct carbon removal technologies.
    I do want to emphasize that removal from the atmosphere 
also can be done biologically----
    Senator Heinrich. Okay.
    Dr. Moniz. ----and well beyond simply planting trees, and 
so that's also an important part of the research.
    In terms of the current technology for air removal, I think 
the first thing to say about the status of the technology is 
it's very expensive. There are debates about that, but I 
certainly believe today, quite honestly, one is $500 and north, 
frankly, per ton. So we have a long way to go in terms of some 
undiscovered approach.
    I think what Paul Dabbar just mentioned in terms of the 
kind of materials by design, for example, could be a 
contributor to resolving that, but we have no answer. We have 
some who would say that they have line-of-sight to the order of 
$100 a ton. I am not quite there yet, but--they have better 
eyes, apparently, than I do--but if one could reach that, that 
would be a transformative development.
    Senator Heinrich. I am quickly running out of time, but I 
want to go to Mr. Grumet. In addition to what you want to add 
on direct air capture, talk to me a little bit about how we 
build risk tolerance. You look at the solar panels, I mean in 
1970, it probably would have cost you, I don't know, $150,000 
to put enough solar panels on your house to run your home. 
Every time we doubled manufacturing capacity that went down 20 
percent. Today it is at incredible levels. But if you listen, 
if you were around here when the word Solyndra was popular, you 
would think that we were making no progress on that. So how do 
we build that risk tolerance? Because we are going to fail, and 
we need to fail in order to succeed.
    Mr. Grumet. Well, first of all, Senator, thank you for 
bringing an engineering degree to this conversation. I think 
that makes you quite an unusual member of the Congress.
    First, just on direct air capture, obviously I think the 
Secretary laid out the big picture. But in terms of what, you 
know, the Congress and this Committee could do, the National 
Academy of Science has laid out a really thoughtful agenda for 
the next decade, and our opinion is that to achieve that in the 
next year, we need about $60 million, so just to give you kind 
of a scale. Potentially, direct air capture could fundamentally 
change this entire equation, and so I think it is a very high 
upside and high-risk opportunity.
    And that goes to your other question. I think there really 
has to be a conversation about what innovation means. You know, 
when the Congress passes a loan guarantee, you score it usually 
at about 10 percent, which means you are assuming that $1 out 
of every $10 will not be successful such that the company will 
not be able to pay you back and the taxpayer has to. We have 
done much better than 10 percent. But still there is this 
reluctance to tolerate that failure.
    And again--I don't want to bring it back all the time--I 
think it just comes back to the climate debate. There were a 
lot of people who were very frustrated with what they believed 
to be the Obama Administration's approach on climate change, 
and anytime anything screwed up there was a ``gotcha'' moment.
    And you know, this Committee should never tolerate 
mismanagement. You absolutely have to put DOE on a path to 
success with gateways and oversight, but things are going to go 
wrong and the other team is going to be in charge, and what the 
Committee does at that moment says a lot about whether we send 
the kind of consistent signal that's going to be necessary for 
success.
    Senator Gardner. Thank you, Senator Heinrich. I have a 
couple of questions for the panel, myself. Thank you to all of 
you for being here and for your distinguished service. But one 
particular thank you to Secretary Moniz for being here. 
Seventeen inches of snow for Telluride over the last 72 hours, 
so just so you know, we are heading out there next.
    Dr. Moniz. I like snowpack out in Colorado.
    Senator Gardner. Very good.
    Secretary Dabbar, thank you very much for your leadership. 
The National Renewable Energy Laboratory in Colorado is an 
incredible, incredible crown jewel of our energy ecosystem and 
the work that they do out there. We had the opportunity to 
travel there with Secretary Perry in the last several months 
and look at a number of projects they have.
    I would like to follow up with you a little bit more about 
how we make sure that they are coordinating with other areas of 
the Federal Government because I think Secretary Moniz's 
testimony makes a good comment about how the renewable energy 
work that may be taking place in other parts of the government, 
like within USDA, how are we coordinating across the agencies 
with the Department of Energy like NREL to make sure we are not 
``siloing'' off, I believe is the term Secretary Moniz uses, 
when it comes to clean energy efforts.
    Secretary Moniz, we talked about all-of-the-above strategy. 
In your testimony you say this: that a large American company 
that makes up the American Energy Innovation Council argued for 
tripling federal clean energy investment, but more than 
increased funding is needed. In your testimony you state the 
federal energy innovation portfolio, it is our innovation 
chain, actually, needs to be all-of-the-above. What do you mean 
by that? How do you go to all-of-the-above energy, all-of-the-
above sort of innovation?
    No, go ahead, Secretary. We are going to follow up. That 
was the warning that I am calling him later.
    Secretary Moniz.
    Dr. Moniz. Thank you, Senator Gardner.
    So yeah. So first of all, we do support the AEIC notion. 
And by the way, that can be very loosely argued to in terms of 
the generally-accepted level of federal R&D funding broadly 
combined with the fraction of the economy in energy, and it 
kind of gives a loose support to the AEIC objective. But we do 
need to go beyond that. And I would add, however, going beyond 
that is certainly made easier if we can get the additional 
resources to our friends at DOE and elsewhere.
    So there the--what I mean by ``all the above'' is that 
every way of getting to low carbon technologies that can 
contribute to the future needs to be in our robust portfolio.
    What I said earlier, and it's also in the testimony, that 
reinforces that is I think history shows in this country that 
betting on prescribed outcomes, prescribed answers to a problem 
is far inferior to betting on the outcomes of innovation and 
having our--having our scientists, our engineers, our 
policymakers, our government officials----
    Senator Gardner. If I----
    Dr. Moniz. ----in that framework.
    Senator Gardner. Yes. If I could interrupt right there 
because I think it is a really good question. Do we like the 
energy because of the technology or do we like the technology 
because of the energy is the question. I mean, do we like gas 
because of the energy or do we like, you know, the energy that 
comes from big gas? Is that what we like? So I think that is 
the question that we have to answer here, gasoline or fossil 
fuels or renewable energy, those kind of things.
    Dr. Moniz. And time scales come in. Obviously, in ten 
years, it's with technologies that we now see improved 
somewhat; but longer-term, let's let the innovation get turned 
loose.
    Senator Gardner. In Colorado, Xcel Energy has been doing 
some pretty incredible things. They have set up some very 
aggressive goals when it comes to emission-free energy. They 
are doing a remarkable job. They are about 23 percent carbon-
free production right now, generation. But 60 percent of that 
carbon-free energy is--of that 23 percent, 60 percent of that 
production comes from nuclear.
    So in any scenario, whether we are looking at existing 
technology, do you see a path to emissions-free energy in the 
next 10 to 20 years that does not involve nuclear energy? And 
this is a question for everybody on the panel.
    Mr. Dabbar. If I have the risk of saying something--not 
saying something nice about the other 49 states, I actually 
think Colorado is actually the most interesting piece of data 
that's about to come out this year. You mentioned about Xcel.
    But one particular area that's going on right now is that 
they did exactly what Secretary Moniz was talking about in 
terms of what the target--not technology but what you're trying 
to accomplish. And when they put out offers--and there's public 
information but they haven't selected winners, but if you see 
the firm renewable bids; so this is batteries and solar or wind 
and solar bids that came in, they published the average prices, 
and so you kind of know where things are going to end up. And 
so there were firm renewables--batteries and/or batteries and 
solar--at around $31.00 a megawatt-hour. They didn't publish 
the gas prices bids. They blanked it out. I just happen to know 
a little bit about power trading. The dollars about that for a 
20-year bid are about 45 in Colorado. So the odds of this year 
firm renewables, batteries plus renewable, clearing in Colorado 
seems highly likely. I'll leave it at that. They're kind of 
moving down that road of analysis.
    What's interesting is if you back out the tax policy, the 
IDC and the PTC, they're pari passu. So going to--this was a 
much larger discussion around batteries and nuclear and solar. 
But on the narrow point of technology, without any incentives, 
it looks like the price for power for firm, whether it's gas or 
it's renewables, in Colorado looked like it's about the same. I 
think this is a really important piece of data.
    Senator Gardner. Thank you for bringing that up. Thank you. 
Could we go back to----
    Mr. Grumet. Just if I could----
    Senator Gardner. ----the question.
    Mr. Grumet. ----answer your question?
    Senator Gardner. Yes.
    Mr. Grumet. Nuclear power provides about two-thirds of our 
existing non-carbon energy. The idea that we would start 
swimming farther away from the shore just makes no sense to me. 
And if we believe that climate change is a kind of, you know, 
global species-challenging problem, we should be doing 
everything we can to sustain every single non-carbon electron 
we have and, you know, we're going to need new nuclear 
technology. But trying to--you know, absent existing 
technologies from that discussion, I think would be a terrible 
mistake.
    Senator Gardner. I am over time, Mr. Faison.
    Mr. Faison. I think if you look at the examples of France 
and Sweden versus Germany, France and Sweden deployed clean 
energy at five times the rate at Germany, and France's 
electricity bills are 45 percent less than Germany's. And so if 
we have new nuclear technologies that could be built and 
manufacturing plants, my guess is we could scale multiples 
faster than we could on renewable deployment.
    Senator Gardner. Thank you.
    And with the leniency of my colleagues, Secretary Moniz.
    Dr. Moniz. This will be extremely brief, but just to follow 
up on Paul's point, yes, so-called firm renewables have made 
tremendous progress and it's great, but we can't only talk 
about two- to four-hour storage times. We have a lot of other 
issues in evolving the system.
    Senator Gardner. Thank you.
    Ms. Wince-Smith. I have to jump in on the workforce issue 
on the nuclear----
    Senator Gardner. Briefly, briefly please.
    Ms. Wince-Smith. Right now we have a very weak workforce in 
nuclear, and young people are not going into nuclear 
engineering except perhaps at the Naval Academy and MIT and 
RPI. And if we want the next generation of talent in the 
nuclear industry, that's something we really need to focus on.
    Senator Gardner. Very good point. Thank you.
    Senator King.
    Senator King. Thank you. A couple of preliminary 
observations.
    Dr. Dabbar, please apply artificial intelligence to the 
scheduling of Senate hearings. We are all supposed to be at two 
or three places at once, and none of us have managed to do it.
    I just want to follow up on the comment of Senator 
Heinrich. He mentioned we are now at about 400-plus parts per 
million of carbon in the atmosphere. The last time we were 
there was 3.6 million years ago, and the average temperature in 
the Arctic was 60 degrees, so that just gives you a flavor of 
where we are. We are in totally uncharted territory now, and I 
do think it is urgent.
    Secretary Moniz, it is wonderful to see you. As a fellow 
New Englander, I am sure you are glad, as I am, that the 
Patriots ended the terrible three-month drought in world 
championships that we have had----
    Dr. Moniz. I was there.
    Senator King. ----since the Red Sox won in November, so it 
has been tough but we made it through.
    Dr. Moniz. The Celtics are coming on.
    Senator King. Senator Cantwell, you are recognized.
    [Laughter.]
    Senator King. I just could not resist.
    ``Moonshot'' has been used a number of times, and I think 
it is fascinating that the origin of that term is the Apollo 
program, and the key to it was Kennedy saying we are going to 
it in ten years. The other example of the government is, I 
think it was, Lyndon Johnson said we are going to get a train 
from Washington to New York in three hours. A concrete goal is 
what made those two things happen.
    How do we--what should be our concrete goal in energy? I 
don't think ten years is realistic, but shouldn't there be some 
number? Because otherwise we don't have anything to shoot for. 
If you are going to do a moonshot, you have to know what it is 
and where you want to land.
    Mr. Grumet. So I'm going to give you a few suggestions and 
then I'm going to turn it over to Jay, who's also talked about 
this a lot.
    You know, there is an intellectual sequence to get there. 
The first thing we have to do is decide what the problem is.
    Senator King. Exactly.
    Mr. Grumet. Once we decide what the problem is, then we 
have to have a general and philosophical sense of how we want 
to approach it, and I think most people on this panel would say 
a performance standard: a zero-carbon or a low-carbon as 
opposed to a particular technology. And then you have to do 
something a little harder, which is to look at the world and 
say these are the eight things that seem like they might get us 
there. Alright? This idea that after just saying we want a 
performance standard, Congress or the Administration just kind 
of steps back and just--things don't just happen.
    Senator King. Right.
    Mr. Grumet. And so, you know, I think there are a lot of 
different ways to slice this. I, because I'm not nearly as 
sophisticated as the Secretary, think about it in terms of 
technology: that there's a critical opportunity around nuclear 
and we can set a real clear goal.
    Senator King. Nuclear storage, carbon capture.
    Mr. Grumet. Exactly.
    Senator King. Hydrogen.
    Mr. Grumet. If this Committee were interested in having a 
discussion about what those kinds of goals could be and what 
would be the processes along the way that we could allow 
ourselves to do.
    Senator King. And if we don't set them, somebody is going 
to set them, and they will be set sort of randomly. I think 
this is a better public policy.
    Let me follow up, Mr. Faison. I think you had a really good 
insight that a molecule of CO<INF>2</INF> released anywhere in 
the world has the same impact. Why did we leave the Paris 
Accord, which was not a binding treaty, but was at least the 
first real international effort to acknowledge the problem and 
to deal with it? Because we could do everything in the world 
here in the U.S.; we could lower our output by 50 percent or 90 
percent, and as you pointed out, it wouldn't matter because 
China and India are still pumping CO<INF>2</INF> out in record 
amounts.
    So don't we need some international--isn't this an 
essential part of dealing with this issue?
    Mr. Faison. Well, I'm for the Paris Agreement. Fortunately, 
we are kind of like artillery officers where we focus on the 
target rather than stuff going on around us.
    Senator King. But part of the target has to be 
international, doesn't it?
    Mr. Faison. I agree. I see there are two things to that. 
Yes, I'm for Paris, I'm for standards, I'm for this government 
setting--making this a priority and setting ambitious goals. 
Goals are at the very top of our agenda.
    However, if we put standards in place, for example, is 
Nigeria going to follow them? So there are a lot of countries 
in the world--Indonesia, India; China may. But I think in order 
to achieve the kind of decarbonization that we need, we have to 
deliver the next set of affordable and clean technologies that 
we can export.
    Senator King. Oh, everywhere. I totally agree with that. 
But there do have to be standards and we have to realize that 
this is a global problem. It's not a New England problem or a 
U.S. problem.
    Mr. Faison. Correct.
    Senator King. Secretary Moniz, just in a few seconds, if 
you were going to advise us, what should be the top five 
priorities for federal R&D on energy?
    Dr. Moniz. If I may take the liberty of a brief comment on 
the global issue, absolutely. But I think there's also an 
understanding that there will be kind of tiers of compliance in 
the timeframe with the industrialized nations, which is where 
most of the emissions are today, needing to lead. The emerging 
economies may be a little bit behind, and certainly the less 
developed countries behind as well. So I think that's a clear, 
clear pathway going forward.
    In terms of the areas, well, again, you know, our analysis 
from over 100 technologies initially, we came down to ten areas 
that we feel are ones that are underfunded and have great 
breakthrough potential, and those were storage broadly, many 
time scales; advanced nuclear; a set of technologies that can 
serve multiple sectors, like hydrogen, like advanced 
manufacturing which Senator Stabenow mentioned earlier; but 
grid modernization.
    And something we haven't mentioned today, but integrating 
all of those platform technologies into the grid and into so-
called smart cities, which is also a way of bringing new 
services to consumers. But that's an area where the new 
players, like the big data companies--Senator Cantwell has a 
few near her--and the energy incumbents must find a way of 
using their skill sets cooperatively.
    And finally, a set of these deep decarbonization, large-
scale carbon management issues, many of which we've talked 
about today, and I would just repeat: the whole suite of carbon 
capture, utilization, and sequestration technologies including 
new things like--``new things'' in the sense that it happens in 
nature but it doesn't happen at the scale to accelerate--things 
like biological sequestration: literally, perhaps engineering 
plants with much deeper root systems, for example, to fix 
carbon dioxide.
    So that's kind of a suite that we would emphasize.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, and thank you all. This 
has been a great conversation this morning.
    Can I ask, just so I have a clear understanding, does 
anyone on the panel disagree that we should be looking at an 
all-of-the-above portfolio when it comes to energy geared 
toward a particular outcome, and that outcome would be 
decarbonization? Does anybody disagree with that?
    [No response.]
    Okay, and I agree with it. I think that is why we are here. 
That is where we could set our long-term mission and goal. As 
you can see, there are challenges, obviously, and competing 
interests, political interests.
    But I also think, besides the fact that we are here and 
hopefully going to be setting that standard, don't you also 
agree that standard is going to be set by the demand? We are 
hearing of individuals across this country that are demanding 
that decarbonization, that are demanding those electric 
vehicles, that are demanding those smart communities and 
intelligent transportation systems. That is going to help drive 
this as well, wouldn't you agree?
    [Witnesses nod in agreement.]
    And I do too. I think we have a perfect opportunity here to 
really coordinate with that demand and do something. And it 
starts with the innovation. I absolutely agree that an energy 
innovation ecosystem is where we as a country should be 
leading. We should be leading in this space and take every 
advantage when it comes to investment and incentivization and 
whatever else we need to do.
    Here's the challenge I always hear, and it goes back to, I 
think, what Ms. Wince-Smith talked about: workforce. As we go 
down this path, what are our challenges for our workforce of 
the future, and how do we bring them along with us? What should 
we be doing to also focus on those workforce needs? And let me 
start with you.
    Ms. Wince-Smith. Well, one of the things we need to do on 
the workforce is really recognize the whole up-skilling that 
has to be done, because the jobs we're talking about require a 
degree of literacy in coding and computing and the digitization 
of the economy, so that's a very different workforce than the 
20th century manufacturing workforce of the past.
    One thing that is very exciting that's underway in the 
skilled labor unions is how they are taking the lead on a lot 
of this training and they are doing it in partnership with 
large energy companies, and it's that partnership between labor 
and industry that's advancing the immediate needs. But for the 
long-term, you know, states need to recognize that while it was 
unfashionable to support vocational training, we need to 
reinvent that for the 21st century model.
    And the other thing I would add is if you look at our 
competitors around the world, Germany being a very good example 
on workforce, they have such a sophisticated strategy really 
targeting these jobs and putting the co-ops in place to really 
get the workers that are able to earn high wages. I mean 
Germany's wage structure is higher than ours and yet you never 
hear of Germany about not having the workers we need, where we 
do in the United States.
    And Senator, if I may, I wanted to just add something on 
the issue of the standards and decarbonization, because no one 
yet has mentioned that global supply chains in which all our 
companies are operating are increasingly demanding 
decarbonization to participate in these supply chains. And if 
you look at what the EU has been doing right now on privacy, no 
one is going to operate in the EU without having certain 
privacy. I'm hearing that very soon they are going to be using 
standards and metrics of decarbonization as perhaps a non-
tariff barrier. But if we want the exports of the clean 
technology that we want to develop from our R&D, we should be 
at the head of the curve on that. So I wanted to really bring 
that in because no one had really mentioned that heretofore.
    Mr. Grumet. Senator, if I could just add, I think your two 
points are actually one and the same because if we have a 
better vision, we will then change the conduct of the 
workforce. Right now, joining an energy company is a political 
decision. Some people will only want to work for solar 
companies. Some people will only want to work for oil 
companies. I have the privilege right now of working on the 
National Petroleum Council's study on energy infrastructure, 
and the technology innovation that is happening right now in 
pipelines is phenomenal. And so I think that what will change 
the workforce, again, is having the sense that we're all part 
of something that's important and something that the nation 
cares about.
    And, you know, I think what Senator Barrasso and others 
were able to do with the FUTURE Act, change the conversation 
around coal in the environmental community. People are having a 
hard time. It sends a signal that there is a future here. It's 
not a bad fuel, it's not a good fuel; it's a possibility for 
the future. And it's had, you know, a real impact on the energy 
in that community. I think you're having tough conversations.
    And so I think, again, if we can get on that kind of sense 
of we're going to do something great together, you will see 
people entering the energy field who otherwise would not.
    Senator Cortez Masto. Thank you.
    I know my time is running out. Secretary Moniz.
    Dr. Moniz. Yeah. I just want to add to what Deborah said in 
the workforce, and she mentioned the labor unions, with whom I 
speak quite often. And this is something I know Senator Manchin 
feels very strongly about and I agree with. Look, what we tend 
to do is immediately go to the issue of let's put in some 
retraining dollars in various places, and that's--and I'm not 
arguing against it. But frankly, the labor unions tell me: 
Look, we can do the training. Give us the jobs. Give us the new 
manufacturing.
    That's why also looking at advanced manufacturing, what can 
we do with additive manufacturing? We have a possibility of 
doing this really across the country, and I think that's the 
mentality that we need to have.
    Senator Cortez Masto. Thank you.
    Dr. Moniz. Get the jobs. And building energy 
infrastructure, building other infrastructure.
    Senator Manchin. If I can just say something very quick and 
add to that. I have experienced it in parts of our state. They 
just got left behind. And I say, give them a choice. But it 
takes a while to build a factory. It takes a while to get a 
factory into operation. During that period of time that it 
takes, if there is an announcement there is going to be a 
factory in a certain part of any of our states that is 
transforming our energy delivery system, they will prepare. We 
will get people ready. They will go and they will be educated, 
because they know that job and that paycheck is waiting.
    What we have done is, basically, we have eliminated and 
changed courses, and then we say we are going to go down and 
retrain. Well, what the heck are you retraining them for? There 
is nothing coming. There is no hope. They don't want to leave 
the area. That is where their family is.
    That is the problem we run into, and then we get in these 
divides where our caucuses, whether it be Democrat or 
Republican, are divided within the whole Senate or the whole 
Congress.
    We don't want to drink dirty water. We don't want to 
breathe dirty air. We want our kids to have a future. We really 
do. But they also realize they have to have a job to sustain 
themselves.
    We think we can make this happen and we are hoping that--I 
am just hoping that, basically, the Green New Deal gets us on a 
path where we can come together, understanding that is a really 
lofty goal. Can we accelerate it? I think Martin has talked 
about acceleration of things happening more quickly than what 
we ever thought. That is all doable, and I am just hoping that 
we can find that path. I am worried about the rest of the world 
unless we find the cost-effectiveness of making sure there is 
going to be an incentive for them to jump in.
    Senator Cortez Masto. Thank you.
    Can I make one comment? Because I do not disagree with my 
colleague, and thank you for the comment, but let me just say 
this: ten years ago Nevada was known for gaming, entertainment 
and mining. Now we are an innovation state. That is because we 
got together as a state and did just what you said: Where is 
our focus? Where is our future? Where can we bring in new 
business? What can we do collectively to change it? And we 
have.
    And I think that is what it takes: that combination of the 
federal level with the innovators, with the private sector and 
your local governments, everybody coming together. But you have 
to ask that question first and you all have to work together to 
figure out where we want to go. And it can be done. I think you 
are right.
    Senator Manchin. You have to have a tax base for that. 
Gambling gave you the tax base----
    Senator Cortez Masto. No, it didn't.
    Senator Manchin. ----for what it cost to diversify.
    Senator Cortez Masto. No. That is why we had to diversify.
    Senator Manchin. No. I am saying that our tax base has been 
coming from extraction, and when it left, we had a hard time 
just----
    Senator Cortez Masto. I am just telling you, we were 
hardest hit in the recession, and I am telling you gaming 
didn't help us. It is the reason why we came together and said 
we have to focus on another industry.
    Senator Gardner. Once in a while in the U.S. Senate, debate 
breaks out. That is really good.
    [Laughter.]
    Senator Cortez Masto. Thank you. Thank you very much. I 
appreciate the indulgence.
    Senator Gardner. Senator Cantwell.
    Senator Cantwell. Mr. Chairman, I love the lively debate 
among the panelists, the members, everything. All I can say is 
the Quadrennial Energy Review and the needs--the needs of our 
nation for the next four years.
    It is good to see all the panelists, including Secretary 
Moniz, because I think that report just laid out everything 
that we all are saying again today, which is that we need a 
workforce. We know what our challenges are moving forward, we 
know what our needs are, we know we need to invest in 
technology, and so a very good panel discussion.
    I wanted to ask Under Secretary Dabbar and Secretary Moniz 
a couple of things. You mentioned PNNL. Thank you for 
mentioning that and the great work that they are doing out 
there. Obviously we are a region that gets the smart grid. I 
don't know if it is the marrying of hydro and the technology 
base or--you would think if you are producing three or four 
cent kilowatt power, you might not keep looking for 
efficiencies. But we do, and we keep finding them. I guess 
maybe that culture really did help us understand how much 
efficiency, which I think is going to be the juggernaut of the 
future, can do. Because it doesn't matter what the source of 
energy is, if you can make it more efficient and deliver it 
more cheaply, then that is what people are going to do. Being 
the leader in efficiency is just going to be huge, so I wanted 
to ask you about the testing. You know, part of the efforts 
that we need from DOE is how to test storage, how to help 
utilities at all or other industries test out in real live 
situations what storage and integration can do, so I want to 
get your comments on that.
    I know Senator Murkowski was probably here earlier. I don't 
know if she asked about quantum information sciences, but what 
can we expect from quantum computing to help us in these 
efforts, if you could, Under Secretary or Dr. Moniz?
    Mr. Dabbar. Thank you, Senator.
    So from a testing point of view, one of the things I think 
the lab complex does well is basically the contract research 
that we do, you know, for people, and I'm going to give you an 
example. I think our two lead battery--well, I know our two 
lead kind of battery areas are at NREL and at PNNL. They do 
slightly different ones, but I'm going to give an NREL example. 
At NREL, we have a test bed which is funded by the big three 
auto companies where they jointly got together with our test 
bed, with our kind of capabilities, to run electric vehicle 
testing jointly for systems. And we do research on their behalf 
jointly, that they, kind of, pre-competitive between 
themselves, where they decided to get together as an American 
footprint. And I do think we are very much in the lead in front 
of Europe in particular on this particular topic, in part 
because of some of the testing that we are able to do.
    I think one thing that we do well at PNNL is actually work 
with the utility industry. I'll give you one particular 
example. Flow batteries have the ability to get from multi-day 
sort of storage and some of the things that many people here 
have been talking about earlier, and actually doing testing of 
larger-scale deployment working with industry is actually 
something that PNNL is working on.
    So I agree that--and this goes back to sort of the broader 
lab-to-market points in my earlier testimony of how do we bring 
people together more and how do we take the basic research and 
chemistry, for example, in this particular case for PNNL and 
others, and how do we help bridge it down into a product?
    And I think one of the challenges of the lab complex was, 
historically, culturally it was, we'll build it, and someone 
will come and grab it from us if it's interesting. And so we 
have been working, you know, the Secretary, myself and others 
have been working on actually a bit of a cultural change, which 
is increasing dialogue so that we have capabilities at the labs 
to hand it off and to help develop with them paying to a large 
degree, but using our capabilities and then using our test 
capabilities in helping to create product.
    Senator Cantwell. Great.
    Dr. Moniz, did you have any comments on quantum and where 
it might take us?
    Dr. Moniz. Well, first of all, there's no doubt there's 
been, in my view, rather surprising progress in terms of 
quantum computing. And I want to say that the department I know 
hosted a meeting that I was told went extremely well last, I 
think, Friday, on a major new focus in quantum computing that 
Paul might want to elaborate on.
    I mean I think we are a long way from having anything that 
I would call general purpose applications, but obviously in the 
near-term there are significant possibilities in terms of 
encryption and the like. But I think the developments in the 
physical objects that one needs in quantum computing has been 
just nothing short of remarkable.
    Mr. Dabbar. Yeah. So going back to the grand challenge 
concept that we were talking about earlier, I can tell you that 
the bill that you all passed has really ignited a tremendous 
amount of energy and interest across the country from 
universities and industry. I was just in Seattle with Microsoft 
and the President of the University of Washington who have 
partnered with PNNL just to get it all together in the state to 
form the Northwest Quantum Nexus where they've jointly come 
together to try to attack in particular this one chemistry 
problem at PNNL and bring their various skill sets together.
    So as I like to think about what the Department does in 
part is that we are seed money to try to get the rest of the 
country--universities, private sectors, states--to work 
together. And I think there's a number of things. I'll give you 
a couple of quick points.
    We were able to--we are in the process of standing up the 
first entangled quantum internet ever in the world at Argonne 
and at Fermi in Chicago. It's a big deal. It is far beyond 
anything else, what anyone else is doing.
    And I'll give you one other one about general-purpose 
quantum is a ways away, but you all fund--we have at the 
national lab complex the top supercomputers in the world and we 
continue to build the next ones. One of the things that we're 
looking at for post-exascale, so way out there, is actually 
looking at quantum accelerators, so a quantum computing 
capacity concurrent with traditional classical computers so 
that we can concurrently separate problems within the same 
supercomputer and use basically an analysis of the quantum 
application for the analysis for the data. Might be better than 
the portion of the computer that's classical. We are already 
talking about that.
    I'd like to once again thank this Committee and the whole 
Congress for really jump-starting this in the nation.
    Dr. Moniz. And if I--Oh. Deborah, go ahead.
    Ms. Wince-Smith. Well, I was just going to add that the 
quantum initiative and the bill that you passed and what's 
occurring in the Federal Government and these partnerships is a 
fantastic way to look at these enabling strategic technology 
transformations that we need to prioritize on. This is not 
picking a winner and a loser; this is a global race for 
leadership in the quantum frontier.
    China--I mean if we lose the quantum race to China, there 
are huge national security implications. And interestingly, the 
Council on Competitiveness has a very robust group of CTOs and 
heads of research from our universities, deputy lab directors. 
We're forming a very strategic partnership with Australia, one 
of the Five Eyes, because they are also a leader in quantum. So 
this is, again, an area where we need to come together, use all 
our assets--DoD, DOE, et cetera.
    The other one that I mentioned in my testimony, and I know 
that Under Secretary Dabbar and Secretary Moniz have done a 
huge job, is next-generation microelectronics. I was involved 
in the creation of Sematech, you know, many years ago in the 
Reagan Administration. Again, we had the opportunity not just 
to lead beyond Moore's Law but to develop the hardened 
electronics for cybersecurity and build these systems in the 
United States. We don't have the manufacturing here, but we 
can, and that's an area we should put huge federal investment 
and priority in and build the complex public-private 
partnerships to take it forward.
    Dr. Moniz. If I could just add a note, it's kind of obvious 
but I think it deserves explicit statement that I think the 
Department of Energy--and I go back to when I was in DOE, then 
of course it was DOE and DoD that jointly kind of came together 
on the major computing initiatives. And a reason why DOE is so 
important in this area, of course, is that it's a little bit of 
an unusual Department in the sense of its major national 
security responsibilities in addition to its responsibilities 
in the science and energy realms.
    Senator Gardner. Thank you. Thanks to all of you.
    Members will have two days to submit questions for the 
record. I would ask for your responses as quickly as possible.
    Thanks to all of you for your time and testimony today and 
for the participation of the members. This hearing is 
adjourned.
    [Whereupon, at 11:43 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



</pre></body></html>
